<html>
<title> - THE SITUATION IN SYRIA</title>
<body><pre>[Senate Hearing 112-568]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-568

 
                         THE SITUATION IN SYRIA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
76-271                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e087908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

                 Ann E. Sauer, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                         The Situation in Syria

                             march 7, 2012

                                                                   Page

Panetta, Hon. Leon E., Secretary Of Defense......................     6
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....    11

                                 (iii)


                         THE SITUATION IN SYRIA

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:05 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Nelson, Webb, Hagan, Shaheen, Gillibrand, Blumenthal, McCain, 
Sessions, Chambliss, Wicker, Brown, Ayotte, Collins, Graham, 
and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Jason W. Maroney, counsel; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; and Roy 
F. Phillips, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Christian D. Brose, professional 
staff member; Paul C. Hutton IV, professional staff member; and 
Daniel A. Lerner, professional staff member.
    Staff assistants present: Hannah I. Lloyd, Brian F. Sebold, 
and Bradley S. Watson.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ryan Ehly, assistant to Senator Nelson; Gordon 
Peterson, assistant to Senator Webb; Lindsay Kavanaugh, 
assistant to Senator Begich; Patrick Day, assistant to Senator 
Shaheen; Elana Broitman, assistant to Senator Gillibrand; Ethan 
Saxon, assistant to Senator Blumenthal; Lenwood Landrum, 
assistant to Senator Sessions; Clyde Taylor IV, assistant to 
Senator Chambliss; Joseph Lai, assistant to Senator Wicker; 
Charles Prosch, assistant to Senator Brown; Brad Bowman, 
assistant to Senator Ayotte; Ryan Kaldahl, assistant to Senator 
Collins; Sergio Sarkany, assistant to Senator Graham; and Dave 
Hanke, assistant to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to hear from Secretary of Defense Leon E. Panetta 
and Chairman of the Joint Chiefs General Martin E. Dempsey, 
USA, to update the committee on the situation in Syria and to 
discuss the policies of the administration with respect to 
Syria.
    It was nearly a year ago that demonstrators in Syria 
peacefully took to the streets to call for an end to the rule 
of President Assad and demand an opportunity to choose a leader 
through a free and fair democratic process. Since those first 
days of the uprising, the world has watched as the Syrian 
people have continued to challenge the Assad regime's 
tyrannical ways. As the weeks and months have passed, peaceful 
demonstrators have been killed. The tragedy unfolds daily.
    According to the United Nations' (U.N.) most recent 
estimates, more than 7,500 people in Syria have been killed and 
at least 100 more people are being killed each day. The Assad 
regime's brutal crackdown has included gross human rights 
violations, use of force against civilians, torture, 
extrajudicial killings, arbitrary executions, sexual violence, 
and interference with access to medical treatment and other 
humanitarian assistance. These acts, when committed as part of 
a widespread or systematic attack directed against civilian 
populations, as is the case in Syria, amount, in my view, to 
crimes against humanity.
    President Obama's efforts to build a broad international 
coalition to put massive pressure on Assad have been met with 
opposition from China and Russia. They vetoed a proposal 
brought to the U.N. Security Council by the Arab League to 
establish a Syrian-led political transition to a democratic, 
pluralistic political system. Despite these vetoes, the U.N. 
General Assembly voted overwhelmingly to condemn the Assad 
regime's brutal use of force against civilians.
    Last week the Friends of Syria, which included 
representatives of the Syrian National Council, Secretary 
Clinton, and leaders from more than 60 other countries, came 
together in Tunis, the home of the first Arab Spring uprising, 
to forge a way forward in Syria, including a call for the Assad 
regime to end the violence, withdraw its forces from cities and 
towns, and ensure unhindered access for Arab League monitors.
    The Friends also praised the work of the Syrian National 
Council to form a broad and inclusive body and lay the 
groundwork for a political transition. Importantly, they agreed 
to continue to ratchet up the economic pressure through tough 
sanctions on the Assad family and its supporters. The dialogue 
in Tunis also included a robust dialogue about whether there is 
a feasible way to help those that are under assault by the 
Assad regime in order to defend themselves.
    As the international community continues to search for an 
avenue, there are a number of questions which we must ask about 
the nature of the conflict in Syria: what is the makeup of the 
Syrian opposition? How unified are they and would they be a 
force for democracy and humane governance should they succeed? 
What are the objectives of the opposition and who are their 
benefactors? Is there a political entity, such as the Syrian 
National Council, that is capable of uniting the small bands of 
fighters across Syria and then coordinating the efforts of the 
opposition groups against the Syrian military? Have violent 
extremist elements infiltrated the opposition movement?
    The military questions are, of course, equally important: 
what are the military options available? What are the military 
actions that could be taken and who would they need to be taken 
by to maximize the chances of success, and what are the risks 
and down sides to each option? These are just a few of the 
questions that we hope to discuss with our witnesses this 
morning.
    Just as was the case with Libya, there is a broad consensus 
among regional leaders and organizations on the preferred 
outcome in Syria: Assad and his cronies must go. There is not, 
however, a consensus about how this goal can be achieved. Each 
situation is different. Unlike Qadhafi, who prevented the 
formation of a capable and professional fighting force, 
President Assad and his father before him built a substantial 
and professional military with a modern air defense capability, 
a large deadly stockpile of chemical weapons, and well-trained 
troops. So far, this military establishment has remained mainly 
cohesive and willing to carry out Assad's brutal order to 
conduct a violent campaign against his people.
    Some observers believe the uprising in Syria, which is led 
by the Sunni majority, could aggravate sectarian tensions 
beyond Syria's borders in a region already riven by religious 
and ethnic divisions over power and territory. Syria is also 
home to an ethnically and religiously diverse population that 
includes minority Christian, Alawite, and Druze populations. 
Some religious leaders are raising concerns about the situation 
in Syria devolving to the point where there is little tolerance 
for religious minorities, a situation all too familiar to us 
following the invasion of Iraq.
    We must also try to understand the impact of the conflict 
in Syria on the region. Elements of Hezbollah and Hamas call 
Syria home. Perhaps more importantly, it is Iran's sole ally in 
the Arab world. Iran uses Syria and the terrorist organizations 
it protects to carry out its destabilizing agenda in the 
region. Syria is also home to a Russian naval installation, 
Russia's only regular port of call in the Mediterranean. These 
are but some aspects of the situation that need to be 
considered as we develop a path forward.
    Our witnesses have the responsibility to provide the 
President options to address these challenges and to provide 
him their best professional advice as to the pros and cons of 
such options. As the committee heard from General Dempsey last 
month, the Joint Staff has already begun the careful planning 
necessary to support a full range of potential operations, 
including, I'm sure, humanitarian airlifts, naval monitoring of 
multilateral sanctions, aerial surveillance of the Syrian 
military, and aerial enforcement of safe havens. We look 
forward to discussing these options and many others with our 
witnesses this morning.
    We thank you both for being here this morning. We are 
grateful for your steady leadership and we also appreciate your 
very positive relationship with this committee and its members.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I join you in 
welcoming our distinguished witnesses. Let me thank you, Mr. 
Chairman, for convening today's hearing on the horrific 
situation in Syria. The urgency of this hearing has only grown 
more important over the past several weeks. It's estimated that 
nearly 7,500 lives have been lost and many informed observers 
even think that that figure could be low.
    Syria today is the scene of some of the worst state-
sponsored violence since the Balkans. What is all the more 
astonishing is that the violence continues despite the severe 
international pressure that has been brought against Assad and 
his regime. Syria is almost completely isolated diplomatically 
and the regime is facing a punishing array of economic 
sanctions imposed by the United States, the European Union 
(EU), the Arab League, and others.
    This has been an impressive international effort and the 
administration deserves credit for helping to orchestrate it. 
Unfortunately, the violence continues and, worse, it appears to 
be escalating. Assad seems to be accelerating his fight to the 
finish, and he's doing so with the active support thus far of 
Russia, China, and Iran. A steady supply of weapons, 
ammunition, and other assistance is flowing to Assad from 
Moscow and Teheran and, as the Washington Post reported on 
Sunday, Iranian military and intelligence operatives are likely 
working in Syria to strengthen the regime's crackdown.
    General Mattis testified to this committee yesterday that 
``Assad is clearly achieving what he wants to achieve,'' that 
Assad's military campaign is ``gaining physical momentum on the 
battlefield,'' and that in General Mattis' opinion Assad will 
``continue to employ heavier and heavier weapons on his 
people.''
    Similarly, General Ronald Burgess, the Director of the 
Defense Intelligence Agency, and James Clapper, the Director of 
National Intelligence, both told this committee recently that, 
absent some kind of external intervention, Assad would likely 
remain in power for the foreseeable future.
    The United States has a clear national security interest in 
stopping the slaughter in Syria and forcing Assad to leave 
power. The end of the Assad regime could sever Hezbollah's 
lifeline to Iran, eliminate a longstanding threat to Israel, 
bolster Lebanon's sovereignty and independence, and remove a 
committed state sponsor of terrorism that is engaged in the 
proliferation of weapons of mass destruction. It would be a 
geopolitical success of the first order and, as General Mattis 
told this committee yesterday, ``the biggest strategic setback 
for Iran in 25 years.''
    The President has made it an objective of the United States 
that the killing in Syria must stop and that Assad must go. The 
President has committed our prestige and our credibility to 
that goal and it is the right goal. But the killing continues.
    What opposition groups in Syria need most urgently is 
relief from Assad's tank and artillery sieges in the many 
cities that are still contested. But time is running out. 
Assad's forces are on the march. Providing military assistance 
to the Free Syrian Army (FSA) and other opposition groups is 
necessary, but at this late hour that alone will not be 
sufficient to stop the slaughter and save innocent lives.
    The only realistic way to do so is with foreign air power, 
which could break Assad's siege of contested cities in Syria, 
protect key population centers, and help the opposition to 
Assad on the ground to establish and defend safe havens in 
Syria where they can organize and plan their political and 
military activities against Assad.
    At the request of the Syrian National Council, the FSA, and 
local coordinating committees inside the country, the United 
States should help to lead such a military effort in Syria. 
But, as I have repeatedly said, this does not mean we should go 
it alone. We should not. We should seek the active involvement 
of key Arab partners such as Saudi Arabia, UAE, Jordan, and 
Qatar, and willing allies in the EU and the North Atlantic 
Treaty Organization (NATO), the most important of which in this 
case is Turkey.
    Rather than closing off the prospects for a negotiated 
transition that is acceptable to Syria's opposition, military 
intervention is now needed to strengthen this option. Assad 
needs to know that he will not win and, unfortunately, that is 
not the case now.
    To the contrary, Assad seems convinced that he can wipe out 
the opposition through violence and is fully committed to doing 
so. The ideal political outcome of military intervention would 
be to change this dynamic, to prevent a long and bloody fight 
to the finish by compelling Assad and his top lieutenants to 
give up power without further bloodshed, thereby creating the 
opportunity for a peaceful transition to democracy, possibly 
along the lines proposed by the Arab League.
    To be sure, there are legitimate questions about the 
efficacy of military options in Syria and equally legitimate 
concerns about their risks and uncertainties. It is 
understandable that the administration is reluctant to move 
beyond diplomacy and sanctions. Unfortunately, this policy is 
increasingly disconnected from the dire conditions on the 
ground in Syria, which has become a full state of armed 
conflict.
    Secretary Panetta, you were Chief of Staff to President 
Clinton during much of the debate over Bosnia in the 1990s, 
including the NATO bombing campaign. More than any of us, 
perhaps, you remember the many painful years when the U.N. and 
the EU kept sending envoys to Milosevic and the Bosnian Serbs 
pleading with them to agree to reasonable requests, such as 
lifting the siege of Sarajevo and allowing access to 
humanitarian assistance. You also remember how the Serb leaders 
cynically used these diplomatic entreaties to buy time to 
continue their killing.
    In Bosnia and later in Kosovo, we heard many arguments 
against military intervention. It was said there was no 
international consensus for action, that the situation on the 
ground was messy and confused, that it was not clear who we 
would actually be helping on the ground, and that our 
involvement could actually make matters worse.
    We heard all these arguments about Bosnia, Mr. Secretary, 
and now we hear them about Syria again today. We overcame them 
in Bosnia, thank God, and now we must overcome them in the case 
of Syria.
    I want to close by reading how President Clinton described 
Bosnia in 1995: ``Nowhere today is the need for American 
leadership more stark or more immediate than in Bosnia. For 
nearly 4 years, a terrible war has torn Bosnia apart. Horrors 
we prayed had been banished from Europe forever had been seared 
into our minds again.''
    President Clinton went on to say, ``There are times and 
places where our leadership can mean the difference between 
peace and war and where we can defend our fundamental values as 
a people and serve our most basic strategic interests. There 
are still times when America and America alone can and should 
make the difference for peace.''
    Those were the words of a Democratic President who led 
America to do the right thing in helping stop mass atrocities 
in the Balkans. I remember working with my Republican friend 
and leader Bob Dole to support President Clinton in that 
endeavor. The question for another Democratic President today 
and for all of us in positions of leadership and responsibility 
is whether we will allow similar mass atrocities to continue in 
Syria or whether we will do what it takes to stop them.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Panetta.

    STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE

    Secretary Panetta. Chairman Levin and Senator McCain: Thank 
you for the opportunity to be able to discuss with you the 
ongoing violence in Syria. This tragedy has justifiably evoked 
the concern and outrage of the U.S. Government, the American 
people, and much of the world.
    At the outset, I would like to stress that the President 
and a broad cross-section of the international community have 
stated unequivocally that Bashar Al-Assad must halt his 
campaign of killing and crimes against his own people now. He 
must step aside and he must allow a democratic transition to 
proceed immediately. Furthermore, through its repeated 
violations of human rights any government that indiscriminately 
kills its own people loses its legitimacy. This regime has lost 
its legitimacy and its right to rule the country.
    This situation demands an international response and for 
that reason the United States has been leading efforts within 
the international community to pressure Assad to stop his 
violence against the Syrian people and to step aside. 
Unfortunately, this terrible situation has no simple answers, 
and so the result is a great deal of anger and frustration that 
we all share. There are some members who are concerned about 
whether we are doing enough to stem the violence in Syria, and 
that's understandable. There are others who are concerned about 
the dangers of involving ourselves in still another conflict in 
that part of the world, and that too is understandable.
    Let me try and address these concerns by providing some 
context for what is guiding the administration's views on Syria 
and our actions in response to the violence. The turmoil in 
Syria is clearly part of a larger transformation that has been 
reshaping the Arab world for more than a year. The change we've 
seen has manifested itself in different ways, sometimes through 
peaceful protests and negotiations aimed at a more responsive 
government, but also in other cases in violent uprisings and 
brutal crackdowns from repressive regimes.
    Many countries have been affected by these changes and, 
although each conflict has its own dynamic, it is part of a 
broader trend that is fundamentally and irreversibly reshaping 
the politics of the Arab world. Although this is clearly a 
challenging and unpredictable period of time, our goal must be 
to encourage governments to do more to ensure that their people 
can live in peace and prosperity.
    As a global leader with a vital interest in the stability 
of the broader Middle East, this administration has been 
determined to do everything we can to positively shape the 
course of events in the Middle East. But each situation by 
virtue of the politics, geography, and history of each country 
is unique and demands a unique response. There can be no 
cookie-cutter approach for a region as complex and volatile as 
the Middle East.
    Nevertheless, from the outset we have made clear that our 
response has been guided by three fundamental principles. 
First, we oppose the use of violence and repression by regimes 
against their own people. Second, we have supported the 
exercise of universal rights--right to freedom of expression, 
the right to peaceful assembly, the right to freedom of 
thought, conscience, and religion, the prohibition against 
discrimination, and the right to vote through genuine elections 
that express the will of the electorate. Third, we support 
political and economic reforms that can meet the legitimate 
aspirations of ordinary people throughout the region. These 
basic principles have shaped our response to Tunisia, to Egypt, 
to Libya, and now Syria.
    The violence there has become increasingly dire and 
outrageous. As Secretary Clinton has noted, the Assad regime 
has ignored every warning, squandered every opportunity, and 
broken every agreement. We are forging an international 
consensus that the Assad regime's brutality must end and that a 
democratic transition in Syria must begin.
    Although China and Russia have repeatedly blocked the U.N. 
Security Council from taking action, the U.N. General Assembly 
has given full support to the Arab League's transition plan, 
delivering a clear message from the international community 
that the Assad regime has lost its legitimacy, and there are 
continuing efforts to try and agree on a Security Council 
resolution as we speak.
    The administration's focus now is on translating that 
international consensus into action along four tracks. First, 
we are working to increase the diplomatic and political 
isolation of the Assad regime and encouraging other countries 
to join the United States, the EU, and the Arab League in 
imposing sanctions on the Assad regime. These sanctions are 
having a significant impact.
    Second, we are providing emergency humanitarian assistance 
to the Syrian people, with an initial commitment of $10 
million, and we are working to broaden our efforts at relief.
    Third, we are working with the Friends of Syria and other 
groups to help strengthen the opposition, to try to encourage 
the various opposing groups to unify and lay a groundwork for a 
peaceful, orderly transition to a democratic government, a 
government that recognizes and respects the rights of all 
Syrians, including minorities.
    Fourth, we are reviewing all possible additional steps that 
can be taken with our international partners to support the 
efforts to protect the Syrian people, to end the violence and 
ensure regional stability, including potential military 
options, if necessary.
    This approach has succeeded in putting unprecedented 
pressure on Assad, but it is clear that there is no simple or 
quick solution to this crisis. We believe that the best 
resolution to this crisis will be a peaceful political, 
democratic transition led by the Syrian people along the lines 
suggested by the Arab League. We believe there's still an 
opportunity to try to achieve that goal.
    Although we will not rule out any future course of action, 
currently the administration is focusing on diplomatic and 
political approaches, rather than military intervention. Guided 
by our approach from Libya and elsewhere, we believe it is 
important in this instance that we do the following: that we 
build multilateral international consensus for any action that 
is taken; two, that we maintain clear regional support from the 
Arab world; three, that we make substantial U.S. contributions 
to the international effort, especially where the United States 
has unique resources that can be brought to bear; four, we need 
to have a clear legal basis for any action that we take; and 
five, keep all options on the table, but recognize that there 
are limitations of military force, especially with U.S. boots-
on-the-ground.
    Each situation, as I said, is unique and, as I've said, 
there is no simple solution here. The reasons for the 
differences between our approach with Libya and the current 
approach to Syria are clear. Although there has been widespread 
support in the Security Council and the Arab League for 
military intervention in Libya, no such consensus currently 
exists with regards to Syria.
    For us to act unilaterally would be a mistake. It is not 
clear what constitutes the Syrian armed opposition. There has 
been no single unifying military alternative that can be 
recognized, appointed, or contacted. While the opposition is 
fighting back and military defections and desertions are on the 
rise, the Syrian regime continues to maintain a strong 
military. As Secretary Clinton has noted, there is every 
possibility of a civil war, and a direct outside intervention 
in these conditions not only would not prevent that, but could 
make it worse.
    Even though our current approach is focused on achieving a 
political solution to this crisis, the Assad regime should take 
no comfort. The pressure is building on the regime every day, 
and make no mistake, one way or another this regime will meet 
its end. We will continue to evaluate the situation and we will 
adjust our approach as necessary.
    Let me close by briefly addressing the United States' 
broader strategic interest in Syria and the region. The 
stability of Syria is vital to this region and to Turkey, 
Lebanon, Iraq, and Israel. All of these countries and the 
United States have a strong interest in preventing a 
humanitarian crisis in Syria. But perhaps most notably, Syria 
is a pivotal country for Iran. As Senator McCain pointed out, 
Syria is Iran's only state ally in the region and is crucial to 
Iran's efforts to support those militants throughout the region 
who threaten Israel and threaten regional stability.
    Unrest in Syria has already greatly weakened Iran's 
position in the region and it is clear that Iran only stands to 
lose further as Assad is weakened further. As groups such as 
Hamas distance themselves from the Assad regime, Iran is 
quickly becoming the Assad regime's lone backer. This shows the 
world the hypocrisy of Teheran.
    I cannot predict how this volatile situation in Syria will 
unfold, but the United States has made clear that we are on the 
side of the Syrian people. They must know that the 
international community has not underestimated either their 
suffering or their impatience. We all wish there was a clear 
and unambiguous way forward to directly influence the events in 
Syria. That unfortunately is not the case. That is not an 
excuse; that is reality.
    Our only clear path is to keep moving in a resolute, 
determined, but deliberate, manner with the international 
community to find a way to return Syria to the Syrian people.
    Thank you.
    [The prepared statement of Secretary Panetta follows:]

               Prepared Statement by Hon. Leon E. Panetta

    Chairman Levin, Senator McCain. Thank you for calling this hearing 
to discuss the ongoing violence in Syria, which has justifiably evoked 
the concern and outrage of the U.S. Government, the American people, 
and much of the world.
    At the outset, I would like to stress that President Obama has 
stated unequivocally that Bashar al-Assad must halt his campaign of 
killing and crimes against his own people now. He must step aside and 
allow a democratic transition to proceed immediately. Furthermore, 
through its repeated violations of human rights, the regime has lost 
its legitimacy, and its right to rule the country. This situation 
demands an international response, and for that reason the United 
States has been leading efforts within the international community to 
pressure Assad to stop his violence against the Syrian people and step 
aside.
    I know that there are some members who are concerned about whether 
we are doing enough to stem the violence in Syria and that is 
understandable. There are others who are concerned about the dangers of 
involving ourselves in still another conflict in this part of the world 
and that too is understandable.
    Let me address these concerns by providing some context for what is 
guiding the administration's views on Syria and our actions in response 
to the violence.
    The turmoil in Syria is clearly part of a larger transformation 
that has been reshaping the Arab world for more than a year. The change 
we've seen manifests itself through peaceful protests and negotiations 
aimed at more responsive governments in some cases, but also in violent 
uprisings and brutal crackdowns from repressive regimes in other cases. 
Many countries have been affected by these changes. Although each 
situation has been unique, it is part of a broader trend that is 
fundamentally and irreversibly reshaping the politics of the Arab 
world.
    Although this is clearly a challenging and unpredictable period of 
time, our goal must be governments that will do more to ensure that 
their people live in peace and prosperity.
    As a global leader with a vital interest in the stability of the 
broader Middle East, this administration has been determined to do 
everything we can to positively shape the course of events in the 
Middle East. Each situation--by virtue of the politics, geography, and 
history of each country--is unique, and demands a unique response. 
There can be no cookie cutter approach for a region as complex and 
volatile as the Middle East.
    Nevertheless, from the outset, we have made clear that our response 
has been guided by three fundamental principles:

        <bullet> First, we oppose the use of violence and repression by 
        regimes against their own people;
        <bullet> Second, we have supported the exercise of universal 
        human rights--which include the right to freedom of expression, 
        the right of peaceful assembly, the right to freedom of 
        thought, conscience and religion, the prohibition against 
        discrimination, and the right to vote through genuine elections 
        that express the will of the electorate, and;
        <bullet> Third, we support political and economic reforms that 
        can meet the legitimate aspirations of ordinary people 
        throughout the region.

    These basic principles have shaped our response to Tunisia, Egypt, 
Libya, and now Syria. The violence there has become increasingly dire 
and outrageous. As Secretary Clinton has noted, the Assad regime has 
ignored every warning, squandered every opportunity, and broken every 
agreement. We are forging an international consensus that the Assad 
regime's brutality must end and that a democratic transition in Syria 
must begin. Although China and Russia have repeatedly blocked the UN 
Security Council from taking action, the U.N. General Assembly has 
given full support to the Arab League's transition plan--delivering a 
clear message from the international community that the Assad regime 
has lost its legitimacy.
    The administration's focus now is on translating that international 
consensus into action, along four tracks:

        <bullet> First, we are working to increase the diplomatic and 
        political isolation of the Assad regime--and encouraging other 
        countries to join the United States, European Union, and Arab 
        League in imposing sanctions on the Assad regime;
        <bullet> Second, we are providing emergency humanitarian 
        assistance to the Syrian people, with an initial commitment of 
        $10 million;
        <bullet> Third, we are working with the Friends of Syria and 
        other groups to help strengthen the opposition, encouraging it 
        to unify and lay the groundwork for a peaceful, orderly 
        transition to a democratic government that recognizes and 
        respects the rights of all Syrians, including minorities; and
        <bullet> Fourth, we are reviewing all possible additional steps 
        that can be taken with our international partners to support 
        efforts to protect the Syrian people, end the violence, and 
        ensure regional stability, including potential military options 
        if necessary.

    This approach has succeeded in putting unprecedented pressure on 
Assad, but it is clear that there is no simple or quick solution to 
this crisis. We believe that the best resolution to this crisis will be 
a peaceful, political, democratic transition led by the Syrian people 
and along the lines suggested by the Arab League. We believe there is 
still an opportunity to achieve that goal.
    Although we will not rule out any future course of action, 
currently the administration is focusing on diplomatic and political 
approaches rather than a military intervention. Guided by our approach 
from Libya and elsewhere, we believe it is important in this instance 
that we:

        <bullet> Build multi-lateral, international consensus for any 
        action taken;
        <bullet> Maintain clear regional support from the Arab world;
        <bullet> Make substantial U.S. contributions to the 
        international effort, especially where the United States has 
        unique resources that can be brought to bear;
        <bullet> Have a clear legal basis for any action; and
        <bullet> Keep all options on the table, but recognize the 
        limitation of military force, especially U.S. boots-on-the-
        ground.

    However, each situation is unique and there is no simple solution 
to the situation in Syria. The reasons for a different approach between 
our approach with Libya and current approach to Syria are clear:

        <bullet> Although there was widespread support in the Security 
        Council and the Arab League for military intervention in Libya, 
        no such consensus currently exists regarding Syria;
        <bullet> It is not clear what constitutes the Syrian armed 
        opposition--there has been no single unifying military 
        alternative that can be recognized, appointed, or contacted. 
        While the opposition is fighting back and military defections 
        and desertions are on the rise, the Syrian regime continues to 
        maintain a strong military. For us to act unilaterally would be 
        a mistake;
        <bullet> As Secretary Clinton has noted, there is every 
        possibility of a civil war, and an outside intervention in 
        these conditions would not prevent that, but could expedite it 
        and make it worse.

    Even though our current approach is focused on achieving a 
political solution to this crisis, the Assad regime should take no 
comfort. The pressure is building on the regime every day. Make no 
mistake--one way or another, this regime will meet its end. We will 
continue to evaluate the situation and adjust our approach as 
necessary.
    Let me close by briefly addressing the United States' broader 
strategic interests in Syria and the region. The stability of Syria is 
vital to the region--and to Turkey, Lebanon, Iraq, and Israel. All of 
these countries and the United States have a strong interest in 
preventing a humanitarian crisis in Syria.
    But perhaps most notably, Syria is a pivotal country for Iran. 
Syria is Iran's only state ally in the region, and is crucial to Iran's 
efforts to support those militants throughout the region who threaten 
Israel and regional stability. Unrest in Syria has already greatly 
weakened Iran's position in the region, and it is clear that Iran only 
stands to lose further as Assad is weakened further. As groups such as 
Hamas distance themselves from the Assad regime, Iran is quickly 
becoming the Assad regime's lone backer. This shows the world the 
hypocrisy of Tehran.
    I cannot predict how this volatile situation in Sryia will unfold, 
but the United States has made clear that we are on the side of the 
Syrian people. They must know that the international community has not 
underestimated either their suffering or their impatience. We all wish 
there was a clear and unambiguous way forward to directly influence the 
events in Syria. That unfortunately is not the case. That is not a 
excuse--that is the reality. Our only clear path is to keep moving in a 
resolute, determined but deliberate manner with the international 
community to find a way to return Syria to the Syrian people.
    Thank you.

    Chairman Levin. Thank you very much, Mr. Secretary.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Mr. Chairman, Senator McCain, 
distinguished members of the committee. I appreciate the 
opportunity to meet with you today and discuss the evolving 
situation in Syria. The situation is tragic for the people of 
Syria and for the region. Real democratic reform should have 
been the Assad regime's response to last year's peaceful 
protests. Instead, the regime responded with brutality.
    Syria's internal convulsions are having consequences for a 
region already in turmoil. Refugees are fleeing. Spillover into 
neighboring countries is an increasing concern. We also need to 
be alert to the movement of extremists and other hostile actors 
seeking to exploit this situation. We need to be especially 
alert to the fate of Syria's chemical and biological weapons. 
They must stay exactly where they are.
    With other conscientious nations, the United States is 
applying diplomatic and economic pressure on the regime to 
compel Assad and his accomplices to stop killing their own. Our 
military's role has been limited to this point to sharing 
information with our regional partners. But should we be called 
on to help secure U.S. interests in other ways, we will be 
ready. We maintain an agile regional and global posture. We 
have solid military relationships with every country on Syria's 
borders.
    Should we be called, our responsibility is clear: Provide 
the Secretary of Defense and the President of the United States 
with options. All options will be judged in terms of their 
suitability, their feasibility, and their acceptability. We 
have a further responsibility to articulate risk and the 
potential implications for our other global commitments.
    In closing, I want to assure this committee, you, and the 
Nation that America's Armed Forces are always ready to answer 
our Nation's call. I am prepared to answer your questions.
    [The prepared statement of General Dempsey follows:]

            Prepared Statement by GEN Martin E. Dempsey, USA

    Mr. Chairman, Senator McCain, and distinguished members of the 
committee, I appreciate this opportunity to discuss with you the 
evolving situation in Syria.
    The situation is tragic--for the people of Syria and for the 
region. Real democratic reform should have been the Assad regime's 
response to last year's peaceful protests. Instead, the regime 
responded with brutality. When ordinary Syrians tried to defend their 
homes, the regime opened up with an arsenal of heavy weapons. When the 
Arab League acted to end the bloodshed, Damascus actually escalated the 
violence.
    The Syrian people are suffering. These internal convulsions are 
having consequences for a region already in turmoil. Refugees are 
fleeing. Spillover into neighboring countries--each one a partner or 
ally of ours--is an increasing concern.
    We also need to be alert to extremists--who may return to well-trod 
ratlines running through Damascus--and other hostile actors--including 
Iran--which has been exploiting the situation and expanding its support 
to the regime. We need to be especially alert to the fate of Syria's 
chemical and biological weapons. They need to stay exactly where they 
are.
    The regime's brutality has catalyzed a growing international 
consensus to compel Assad and his accomplices to stop killing their 
own. With other conscientious nations, the United States is applying 
diplomatic and economic pressure on the regime, supporting the 
opposition, and providing humanitarian assistance.
    Our military's role has been limited to sharing information with 
our regional partners--each one very capable in its own right.
    Should the Armed Forces of the United States be called on to help 
secure U.S. interests in other ways, we will be ready. We maintain an 
agile regional and global posture. We have solid military relationships 
with every country on Syria's border. We know how to integrate our 
unique capabilities with others.
    Should we be called, our responsibility is clear--provide the 
Secretary of Defense and the President with options. This is what the 
Nation expects of us.
    Any potential option needs to be judged in terms of several 
criteria. One is suitability--whether the actions will help produce the 
intended outcome. Another is feasibility--whether we can accomplish the 
mission with the time and resources available. We will also consider 
its acceptability--whether the action is worth the cost and is 
consistent with law.
    We have a further responsibility to articulate risk. All options 
require us to take some risk--time and capacity have limits. All 
options also come with unintended consequences. We can anticipate some, 
but many we cannot. Therefore, we need to be clear-eyed about the 
potential implications for our other global responsibilities.
    In closing, I want to assure you and the Nation. America's Armed 
Forces are always ready to answer our Nation's call.
    I look forward to your questions.

    Chairman Levin. Thank you very much, General.
    Let's try 7-minute rounds for questions.
    Secretary Panetta, the Arab League has proposed a 
transition plan. Has the Arab League requested military 
intervention in Syria?
    Secretary Panetta. It has not.
    Chairman Levin. Did they support military intervention in 
Libya?
    Secretary Panetta. They did.
    Chairman Levin. What explains the difference?
    Secretary Panetta. I think they share some of the same 
concerns that we do with regards to the situation in Syria and 
just exactly what kind of military action would have the kind 
of impact that we all desire. Because of the divisions within 
the opposition, because of the situation that is occurring 
there and it's volatile and unpredictable, I think that those 
concerns have impacted on their decisionmaking here.
    Chairman Levin. General Dempsey, you've made reference to 
putting together options for the President should he decide to 
move in one direction or another. Without telling us what you 
would recommend, can you give us a menu of military options 
which might be available?
    General Dempsey. Yes, I can actually discuss them in 
greater detail in closed session if you choose to do that. But 
you mentioned the principal options in your opening statement, 
which would include humanitarian relief, no-fly zone, maritime 
interdiction, humanitarian corridor, and limited aerial 
strikes, for example.
    We're at what I would describe the commander's estimate 
level of detail, not detailed planning; have not been briefed 
to the President, have been discussed with the President's 
National Security staff, and, as General Mattis testified 
yesterday, the next step would be to take whatever options we 
deem to be feasible into the next level of planning.
    Chairman Levin. Would the use of air power against their 
troops be an option? Tell us about the air defenses that Syria 
has?
    General Dempsey. First of all, we're extraordinarily 
capable and we can do just about anything we're asked to do. In 
doing it, we have some considerations that we would make in 
terms of whether we would do it alone or with partners, as 
Senator McCain said clearly. We generally, in fact always, 
provide a better outcome and a more enduring outcome when we 
work with partners, especially in that part of the world.
    The ability to do a single raid-like strike would be 
accessible to us. The ability to do a longer-term sustained 
campaign would be challenging and would have to be made in the 
context of other commitments around the globe. I'll just say 
this about their air defenses: they have--and again, I can 
speak more openly in a closed session about their exact 
capabilities, approximately five times more sophisticated air 
defense systems than existed in Libya, covering one-fifth of 
the terrain. All of their air defenses are arrayed on their 
western border, which is their population center. So 5 times 
the air defense of Libya, covering one-fifth of the terrain, 
and about 10 times more than we experienced in Serbia.
    Chairman Levin. Has NATO taken up the issue of some kind of 
an intervention militarily in Syria?
    Secretary Panetta. Not at this point.
    Chairman Levin. Would it not be useful as a either 
preliminary consideration or as an important signal to the 
Libyan regime that at least NATO take up the question?
    Secretary Panetta. I believe that NATO ought to take up the 
question.
    Chairman Levin. Can you make sure that that happens, or 
recommend at least to the President that that be done?
    Secretary Panetta. Yes.
    Chairman Levin. I think that would be an important signal 
to the Syrian regime.
    General Mattis recently indicated to the committee that 
President Assad's regime is going to fall, and he said it's 
just a matter of when and not if. Do you share that assessment 
and are you as confident that that will happen, and do you 
attach any conditions to that happening? Secretary, let me 
start with you.
    Secretary Panetta. I've heard the intelligence and I share 
the assessment that it isn't a matter of if he'll fall, but 
when.
    Chairman Levin. Is that dependent on our actions or other 
actions against him, or is that going to happen even with the 
current momentum and the current status quo continuing?
    Secretary Panetta. I've asked the same question of our 
Intelligence Community and I think their view is that the state 
of this insurgency is so deep right now and will continue into 
the future that ultimately he will fall one way or the other.
    Chairman Levin. General, can you tell us what capabilities 
there are to get additional weapons to the insurgents or the 
opposition, and also tell us what weapons Assad is getting and 
from what source? If you can try to give us as best you can the 
type of weapons that could be provided to the opposition and 
what weapons are actually going into Assad and from where?
    General Dempsey. I can't speak in open session about the 
source of his weapons, except to say that he has some security 
arrangements with others, both in the region and outside the 
region, to provide weapons, what we would describe in our 
situation as a foreign military sales (FMS) program. He has an 
existing FMS agreement with at least two nations, that I can 
discuss in closed session.
    Chairman Levin. Are you able to tell us what Iran is 
supplying?
    General Dempsey. I can in closed session.
    Chairman Levin. Could you give us some idea in open 
session? In other words, are you able to give us, if not 
precisely, can you give us just some general estimate or idea 
as to what's going in from Iran, types of weapons and quantity, 
without being too precise?
    General Dempsey. If Iran succeeds in some of their 
movements of weapons to Syria, and they have, then it would be 
largely smaller caliber rocket-propelled grenades, anti-tank 
weapons.
    The other actors who have open FMS agreements are generally 
upper-tier stuff, including air defense.
    Chairman Levin. Thank you.
    Thank you both.
    Senator McCain.
    Senator McCain. General Dempsey, are the reports in the 
Washington Post accurate about Iranian involvement? We don't 
need a closed session, I don't think, for you to say whether 
the Washington Post is correct or not.
    General Dempsey. Parts of the Washington Post reports are 
accurate, yes, Senator.
    Senator McCain. Thank you.
    Secretary, General Mattis testified before the committee 
yesterday that the departure of Assad from power, as you 
stated, would be the ``biggest strategic setback for Iran in 25 
years.'' You're basically in agreement with that statement?
    Secretary Panetta. I agree with that.
    Senator McCain. By the way, the Kuwaiti parliament has 
called for arming the opposition. The Saudi foreign minister 
called for it. Other elements of the Arab League are calling 
for it. Clearly, it's just a matter of time before the Arab 
League takes a stronger position on it.
    General Mattis told us, General Dempsey, yesterday that 
Assad's crackdown is ``gaining physical momentum.'' Do you 
agree with General Mattis' statement?
    General Dempsey. I do. He has increasingly used heavier 
weapons.
    Senator McCain. So even though you agree that sooner or 
later Assad will fall, at the moment he happens to be, 
including regaining control of Homs, gaining momentum; is that 
correct?
    General Dempsey. That is correct.
    Senator McCain. So would you characterize this as a fair 
fight, when he's using artillery and tanks to kill Syrians?
    General Dempsey. I would characterize the Assad regime as 
brutalizing their own citizens.
    Senator McCain. I see. But since sooner or later he will 
fall, we don't have to act?
    The President said yesterday he has taken no options off 
the table. Mr. Panetta, in the case of Syria you said in your 
opening statement that includes ``potential military options if 
necessary.'' Yet, Admiral Stavridis and General Mattis stated 
that there had been no contingency planning either in NATO or 
U.S. Central Command. Will there be some contingency planning?
    Secretary Panetta. We have looked at a number of options 
that could be involved here.
    Senator McCain. But will there be contingency planning?
    Secretary Panetta. We have not done the detailed planning 
because we are waiting for the direction of the President to do 
that.
    Senator McCain. Mr. Secretary, President Obama issued a 
presidential directive stating: ``The prevention of mass 
atrocities is a core national security interest of the United 
States.'' That's the administration's policy. With at least 
7,500 and possibly more than 10,000 dead, with Assad using 
tanks, ``gaining momentum'' according to General Mattis, would 
you agree that mass atrocities have occurred and are occurring 
in Syria?
    Secretary Panetta. I don't think there's any question that 
we're experiencing mass atrocities there.
    Senator McCain. So the President said yesterday he's taken 
no options off the table, and you said in your opening 
statement that includes, as I mentioned, potential military 
options, if necessary. Can you tell us how much longer the 
killing would have to continue, how many additional civilian 
lives would have to be lost, in order to convince you that 
military measures of this kind that we are proposing necessary 
to end the killing and force to leave power, how many more have 
to die? 10,000 more? 20,000 more? How many more?
    Secretary Panetta. I think the question, as you stated 
yourself, Senator, is the effort to try to build an 
international consensus as to what action we do take. That 
makes the most sense. What doesn't make sense is to take 
unilateral action at this point.
    As Secretary of Defense, before I recommend that we put our 
sons and daughters in uniform in harm's way, I have to make 
very sure that we know what the mission is. I have to make very 
sure that we know whether we can achieve that mission, at what 
price, and whether or not it will make matters better or worse. 
Those are the considerations that I have to engage in, and 
obviously the administration believes that every effort ought 
to be made to deal with those concerns in the international 
setting to try to build the kind of international consensus 
that worked in Libya and that can work in Syria if we can 
develop that.
    Senator McCain. Let me tell you what's wrong with your 
statement. You don't mention American leadership. Americans 
should lead in this. America should be standing up. America 
should be building coalitions. We shouldn't have statements 
like that we are not going to intervene no matter what the 
situation is. Such has been, at least up until now, the 
statements by the administration and the President.
    In past experiences, those that I mentioned before, America 
has led. Yes, it has been multilateral and multinational, as is 
absolutely vital. We're not leading, Mr. Secretary.
    General Dempsey, again I hear the same old refrain that 
I've heard for many, many years: ``It's not clear what 
constitutes the Syrian armed opposition.'' That was the same 
argument that this administration used for not intervening in 
Libya at the beginning.
    By the way, I might add that the prime minister and deputy 
prime minister of Libya are former professors at the University 
of Alabama, far better than being from Senator Lieberman's alma 
mater. But anyway. [Laughter.]
    We can find out who they are. They're not fighting and 
dying because they're al Qaeda. They're not fighting and dying 
and sacrificing their lives because they're Muslim extremists. 
They're fighting and dying because they want the same universal 
rights and freedom that we are guaranteed in our Constitution.
    So I reject the argument that we ``don't know who they 
are.'' We spend a lot of money on defense and we spend a lot of 
money on intelligence. We should know who these people are and 
it would be easy enough to find out. The best way, of course, 
to help them organize is to provide them with a safe haven 
where they can organize and train and equip.
    I was interested in your answer, and I'll conclude with 
this, that sooner or later Assad will fall. I don't disagree 
with that. In the meantime, he's gaining momentum. He's 
regained Homs. The death count goes up and the atrocities 
continue.
    Yet the President says a core national security interest of 
the United States is the prevention of mass atrocities. Mass 
atrocities are going on. I would hope that America could lead 
and exercise the options necessary to stop these atrocities, as 
has been the actions of the United States of America in the 
past in both Republican and Democratic administrations.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to Secretary Panetta, General Dempsey. On this 
question of what to do in Syria, I'm of like mind with Senator 
McCain, except on the unfortunate reference to the brave 
graduates of Yale University. I'll have to talk to him later 
about that. [Laughter.]
    Perhaps we are of like mind because we went through in the 
1990s together similar circumstances in Bosnia and Kosovo. 
Secretary Panetta, certainly in Bosnia you were there in the 
White House. In each case, the American entrance into that 
conflict was late, but had a very constructive effect and a 
civil war was terminated.
    In my opinion, the humanitarian and strategic arguments for 
the United States to be involved, to help lead an international 
effort which is military to stop the slaughter in Syria are 
actually greater than they were in the case of either Bosnia or 
Kosovo. As great as those were, there obviously is the 
humanitarian crisis, which is that, as we've all agreed, Assad 
is slaughtering his people. He has them out-gunned and for all 
we know he'll keep doing it and not leave office until he's 
worn them down.
    Beyond that are all the strategic reasons that I think we 
also agree on, which is how positive it would be if Assad, 
who's the only ally of Iran, at this critical moment is taken 
down, how liberating it would be to the Lebanese people next 
door, who have suffered under Syrian repression.
    There's another element to this, too, which perhaps is so 
unique and different that we're not giving it enough weight. In 
our foreign policy, we've done a lot of things over the years, 
including in recent years, to try to essentially regain the 
confidence of the Arab world, of the Muslim world. We have here 
a moment where the Arab League, the Gulf Coordinating Council, 
Turkey, are out there--I know Turkey's not the Arab world, but 
in the region--against what's happening in Syria. I think if we 
seem to be holding back--and incidentally, I think those 
countries are out there both because they see their own 
strategic interest in this, but also because their people are 
demanding it, because of the wave of change sweeping across the 
region.
    So to me this is both humanitarian, strategic in terms of 
its negative effect on Iran if we can help bring Assad down, 
but also can help improve our relations with not just our 
allies in the Arab world, but the so-called Arab street. When 
I've been to Libya, as an example, the United States and NATO 
are naturally extremely popular and there's a lot of 
appreciation for them because in their hour of need we were 
there. I hope and pray that we can come to do that again with 
regard to Syria.
    I agree this is not something we should do alone. But the 
truth is without American leadership helping to organize this 
coalition and being prepared, as you've suggested, to provide 
some of the critical resources that we have, it won't happen in 
a timely way and it won't be successful.
    I want to say very briefly, to me, I have kept saying that 
the factors that led us into Libya with an international 
coalition are here. They're happening. We worried about mostly, 
about a humanitarian disaster. They're here.
    But, Secretary Panetta, you've cited a few reasons why 
Syria is different from Libya and, respectfully, I want to 
offer a different view. One is that there was widespread 
support in the Security Council and the Arab League for 
military intervention in Libya. No such consensus exists 
regarding Syria. That's literally true, and that's particularly 
because of Russia and China and what they're doing in the U.N. 
But within the Arab League there's clearly a lot of interest in 
a military intervention in Syria. The same is true of the Gulf 
Coordinating Council. I take it that the Saudis and Qataris are 
thinking of beginning to arm the Syrian opposition as well.
    The other thing I want to say is that in Kosovo, as we all 
remember, the U.S. with a coalition of the willing acted 
without U.N. Security Council approval because again there were 
one or two nations blocking it. So that shouldn't stop us from 
acting.
    The second concern is that we hear all the time the Syrian 
armed opposition is--we're not sure who they are, they have no 
single coordinating person at the top or group at the top. 
Again, I agree, but that was true in Libya as well. The 
militias that formed in different parts of the country were not 
connected. In some sense they were hostile to one another. You 
can see that playing out in some ways in Libya today.
    But when the international community came in it gave 
strength--with military assistance, to the Transitional 
National Council there and they worked together with our 
assistance to bring about the change that occurred.
    Finally, the statement that military intervention would not 
prevent civil war, but could expedite it. I know Secretary 
Clinton said something to that effect. Obviously, there is a 
civil war going on now, and recent history shows that foreign 
military intervention in Bosnia, Kosovo, and Libya has 
actually, Libya most recently, been critical in ending civil 
wars in those countries and the absence of foreign military 
intervention in countries like Rwanda, the Congo, Somalia, and 
others has doomed those countries to suffer through extended 
civil wars.
    I think the clock is running. People are being killed in 
great numbers every day. I think if we don't get the 
international community together in a coalition of the willing 
soon, we're going to look back and say we not only didn't do 
the right thing morally to stop innocents from being killed, we 
missed an extraordinary strategic opportunity to strengthen our 
position and the position of free people in the Middle East.
    I want to give you an opportunity to respond if you will, 
without asking a specific question.
    Secretary Panetta. Senator, I want to make the point that 
the concerns that Senator McCain and you and others have 
expressed are exactly the concerns of the administration. We're 
not divided here and we are not holding back. This 
administration has led in Iraq, we've led in Afghanistan, we've 
led in the war on terrorism, we led in Libya, and we're leading 
in Syria. We are working with those elements to try to bring 
them together.
    If the agreement here is that we ought not to just simply 
go in unilaterally, then we have to build a multilateral 
coalition. We have to be able to work at that. It's not that 
easy to deal with some of the concerns that are out there. But 
nevertheless we're working at it. Secretary Clinton is working 
at it every day. There are diplomats that are engaged on this 
issue. We are trying to engage with NATO. We are trying to 
engage with these other countries. There are other countries 
that are interested in trying to provide provisions. We are 
working with them, we are talking with them. We are looking at 
every option to try to put that in place.
    Can it happen today? Can it happen now? No. It's going to 
take some work. It's going to take some time. But when we do it 
we'll do it right. We will not do it in a way that will make 
the situation worse. That's what we have to be careful of.
    Senator Lieberman. I thank you for the statement. I'm 
encouraged by it, and all I can do is plead with you and other 
nations that we're reaching out to to move as quickly as 
possible, because people are dying every day and strategic 
opportunities are being lost.
    The fact is that we have an opportunity here and it's also 
a responsibility, and I think it's critically important that we 
exercise it.
    I'd say finally that I know some people continue to hope 
that a way can be found for President Assad to leave the 
country and usher in the democratic process of transformation 
that we've talked about. From everything I hear, everything I 
see, he will only do that if he thinks his life, his regime, is 
really in jeopardy. Right now, I think he thinks he's dominant 
and has the kind of momentum, physical momentum, that General 
Dempsey spoke about today.
    So the sooner we put international military pressure on the 
Assad regime, the sooner we have a chance to end this 
peacefully.
    Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mr. Secretary, you said we're leading in Iraq, Afghanistan. 
I don't disagree with that. Leading in Syria, I haven't really 
seen it yet, and maybe that's because we're not privy to the 
information you are.
    I would suggest, Mr. Chairman, based on some of the 
intelligence that we would need to make those determinations, 
that we set up a secure briefing so we can better understand 
the intricacies of what's happening, because right now I agree 
with everything, surprisingly, that Senator Lieberman said, and 
that is, I think, very important. It was very well said about 
we're missing a potential opportunity.
    That being said also, I'd like to shift to General Dempsey. 
We know that Syria has substantial chemical and biological 
weapons stockpiles. We also know that the regime will 
eventually collapse. That seems to be the general consensus. Is 
there a plan available to address that weaponry and do we have 
an elimination plan of any kind set up?
    General Dempsey. Senator, I would very much like the chance 
to talk with you about it, but not in an open hearing. But I'll 
give you the magnitude: 100 times more than we experienced in 
Libya.
    Senator Brown. Great. Thank you. I would like that 
opportunity to get that briefing, once again.
    Sir, based on what you saw in Libya, what are some of the 
lessons that we learned, that we need to apply to any 
thoughtful consideration of military intervention in Syria? 
Because ultimately, I recognize everyone basically hated 
Qadhafi. They wanted to get him out. We had the Arab League. We 
had a broad coalition. I know the U.N. problems that we're 
having.
    But I recognize what Senator Lieberman and Senator McCain 
said, that we do have a lot of thoughtful, concerned partners 
in that part of the region that want to step up. Is there a 
chance we would move without the U.N. and just with those 
partners to take advantage of that leadership role that we 
should have?
    General Dempsey. My job, Senator, is to place military 
options in context. So when you asked me about lessons learned 
that are transferable from Libya to Syria, sure, there are some 
tactically for sure: how to enable indigenous forces on the 
ground without boots-on-the-ground.
    But I very much want to elevate our thinking here about 
this. We're talking about Syria, but we're looking at it 
through a soda straw. It doesn't exist as an individual, 
isolated country. It's in the context of the region. It's in 
the context even of actors outside the region. The inside of 
Syria is a far different demographic, ethnic, religious mix 
than it was in Libya. We need to understand that before we seek 
to use a particular template to solve the challenges they face.
    It's not just about the military. The Secretary and I 
happen to be the face of the military, but this issue has to be 
dealt with in context and we're looking at it through a soda 
straw.
    Senator Brown. Mr. Secretary, who aside from the United 
States do you think is in the best position right now to exert 
the most effective pressure on the Assad regime?
    Secretary Panetta. There's no question in my mind that 
Russia could play a very significant role in putting pressure 
on Assad. They have a port there. They have influence there. 
They have dealings there. Unfortunately, the position they've 
taken in the U.N. was to oppose the resolution, and that's a 
shame.
    But there's no question that they and the Chinese, if they 
wanted to advance the cause of the Syrian people, they could 
bring great pressure on them to do the right thing.
    Senator Brown. I'm presuming Secretary Clinton is working 
and reaching out?
    Secretary Panetta. That's correct.
    Senator Brown. Thank you.
    I'm all set, Mr. Chairman. Thank you.
    Chairman Levin. Thank you very much, Senator Brown.
    Senator Reed is not here. Senator Nelson is next.
    Senator Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your distinguished service.
    It's been reported that al Qaeda leader Ayman Zawahiri and 
other violent extremists have called on members of their group 
to support the uprising in Syria. General Mattis before the 
committee yesterday stated that there is already evidence that 
the terrorist network is involved in supporting the opposition.
    Do we have an idea regarding the number of violent 
extremists that are engaged in the uprising, Mr. Secretary?
    Secretary Panetta. We do, but I would prefer to discuss 
that in closed session.
    Senator Nelson. I understand. But we do have an idea, so 
it's not that we don't have the intelligence.
    Secretary Panetta. We have intelligence.
    Senator Nelson. We have the intelligence. Do we have an 
idea of what sort of outside assistance they're getting as 
well? You don't have to tell me what it is necessarily.
    Secretary Panetta. That's correct.
    Senator Nelson. Do we have some idea of what Iran is 
providing in the way of outside assistance?
    Secretary Panetta. That's correct.
    Senator Nelson. To the level of detail that we need to 
have?
    Secretary Panetta. As a former Director of the Central 
Intelligence Agency, I would like a lot better detail.
    Senator Nelson. Always one more detail. I understand that, 
of course, yes.
    If the decision to arm the Syrian opposition force is 
predicated on defining the force, how long do you think it 
might take us to be able to have that definition of the force 
if a decision is made on a multinational basis to engage in 
arming that force internally?
    General Dempsey. Again, in open session I'll say there's 
approximately 100 groups that we've identified as part of the 
opposition, rough numbers.
    Senator Nelson. Some of them aren't necessarily terrorist 
organizations?
    General Dempsey. No, no. In fact, we can go into that more 
in closed session as well, but we're not suggesting that that 
part of al Qaeda that has made its way to Syria has aligned 
itself or is in bed with the opposition. But they're there 
trying to exploit it, and so that's a factor that we have to 
consider.
    Of those groups, to your question about how long would it 
take us if we chose to do something through the opposition, the 
question would be not how quickly we could, let's say, vet them 
all, but how quickly we could vet enough of them that could 
form some kind of coherent core. But it doesn't exist today. 
Despite our aspirations and hopes that it would, it doesn't 
exist.
    Senator Nelson. It hasn't occurred yet, but it could occur 
on its own, but there is some concern about it getting worse 
before it gets better, more people dying in the interim. So 
obviously time is of the essence in trying to get international 
interest in this, given the fact that we have two of the 
largest countries in the world not supporting our efforts.
    If we made the decision and we have a multinational force 
and we have 100 groups to go through, how reasonable do you 
think it is that you'll get a coalescence of those groups? Will 
providing the arms and providing support, if we don't put 
boots-on-the-ground, that that coalescence will occur? Do we 
think that it will happen that way, or will they be just 
disparate and devolve into some sort of a civil war?
    Secretary Panetta. Senator, I really wish we could predict 
that. But it's dangerous to do that. We faced somewhat the same 
situation in Libya. In heading up the intelligence operation 
there, it was one of the first orders of business, was to try 
to figure out who the opposition was and where they were 
located and what they were doing, what kind of coordination 
they have.
    Here you have triple the problem because there are so many 
diverse groups that are involved. Whether or not they can find 
that one leader, whether they can find that one effort to try 
to bring them together in some kind of council, there are 
efforts to try to make that happen, but frankly they have not 
been successful.
    Senator Nelson. Are we in a position where we have plans in 
place in the event that we engage in Syria to some extent or 
another to deal with the potential of the chemical weapons that 
they currently have?
    Secretary Panetta. I think, as General Dempsey has pointed 
out, that is clearly one of our great concerns and we have 
developed options to try to address those concerns.
    General Dempsey. If I could reinforce, if you think it's a 
concern of ours, you can imagine the concern it is of Syria's 
neighbors. So we are in consultation with them about that 
challenge.
    Senator Nelson. What are the chances of neighbors in the 
region working with us--perhaps they are--to get multinational 
interest in this?
    Secretary Panetta. There are efforts to try to engage the 
neighbors with regards to the issues in Syria, and the 
neighbors clearly share the concerns that we all have with 
regards to the situation there. Two neighbors are being 
directly impacted by refugee problems, both in Turkey and 
Jordan. We're engaging with both of them. We're engaging with 
others to try to see what we can do to try to build at least a 
coalition of those countries to try to engage with regards to 
some of the issues there.
    Senator Nelson. In our efforts to do that do we think that 
they're getting sufficiently motivated and sufficiently 
concerned to engage in some joint effort with their neighbor, 
Syria?
    Secretary Panetta. There is great concern, and they're 
experiencing directly the concern, not only from the refugees, 
but from the fallout of what's going on in Syria. They too are 
concerned about what ultimately happens there when Assad is 
removed or steps aside, what are going to be the consequences 
within Syria itself, because that could have a huge impact on 
them as well.
    Senator Nelson. Thank you both and thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Secretary Panetta. Thank you, General Dempsey.
    I would like to ask about the role of China and Russia 
here. Let me just say upfront--I'm sure you'll agree--that it's 
outrageous that China and Russia blocked the U.N. resolutions, 
both of them, also most recently in February. As I understand 
it, according to the Center for Strategic and International 
Studies report that was issued in June 2010, the arms imports 
from Russia to Syria between 1997 and 2008, that Russia's been 
a leading arms supplier to the Assad regime. Is that the case?
    Secretary Panetta. That's true.
    Senator Ayotte. Do they continue to provide arms to the 
Assad regime now?
    General Dempsey. Yes, Senator, they do.
    Senator Ayotte. So Russia is continuing to provide arms to 
the Assad regime as they murder their own people?
    General Dempsey. They have a longstanding FMS relationship 
with them and it continues on unabated.
    Senator Ayotte. It doesn't seem to matter to Russia at all 
that they are using these arms to murder their own people. It's 
outrageous.
    As I understand it, China has also provided in the past 
arms to the Assad regime as well, to a lesser extent.
    Secretary Panetta. Let me get back to you, because there 
are other areas of assistance, but I'm not sure about arms.
    Senator Ayotte. Okay. I would appreciate a follow-up to 
that.
    [The information referred to follows:]

    During the past 8 years, China has been the second largest arms 
supplier to the Syrian military; however, its arms trade with Syria 
lags far behind Russian sales to Damascus.

    Senator Ayotte. They certainly to some extent have provided 
assistance to the Assad regime in the past. Do we know if 
they're providing any assistance now of any type?
    General Dempsey. No, I haven't been tracking intelligence 
on China's role in arms sales, Iran, and you noted Russia, from 
the report.
    Secretary Panetta. But I think economically they have had 
ties into Syria that they still are trying to maintain.
    Senator Ayotte. Is it not true also that, with respect to 
our posture with Iran in terms of wanting to impose the 
toughest economic sanctions possible to ensure that Iran does 
not develop nuclear weapons capability, that Russia and China 
are a key to that, because we know that Russia has actually an 
economic interest, unfortunately, in the Iranian nuclear 
program and that China relies heavily on Iran for oil exports? 
Is that not true?
    Secretary Panetta. Correct.
    Senator Ayotte. Yet they have failed also to step up to the 
plate to impose the types of tougher sanctions we would like 
them to do so that the world is together to stop Iran from 
acquiring nuclear weapons capability; is that not true?
    Secretary Panetta. You're correct.
    Senator Ayotte. What can we do to be tougher on Russia and 
China if they are going to take their position in the world as 
part of the world leadership? I view their behavior in blocking 
the U.N. resolution as irresponsible and also the fact that 
they haven't stepped up to the plate to make sure that we stop 
Iran from acquiring nuclear weapons capability. It's all 
related and it's obviously very detrimental to the safety of 
the world. What should we be doing there to be tougher on them?
    Secretary Panetta. Obviously, you should hear this directly 
from Secretary Clinton, but my knowledge is that Secretary 
Clinton is exhausting every effort to try to engage both Russia 
and China in this effort, particularly Russia because of its 
longstanding relationship there, because it owns a harbor in 
Syria and has the record that you just described with Syria, 
that Russia could, if they wanted to accept the responsibility 
that they should, they could be helpful here in the effort to 
try to remove Assad.
    Senator Ayotte. I appreciate those efforts. Mr. Putin just 
got reelected and I would hope that he wouldn't want the blood 
of the deaths of Syrians on his hand and that he would stop 
selling arms to the Assad regime, and, of course, that both 
Russia and China would step up, support the U.N. resolution. 
Both those countries, in my view, I don't know why they would 
not want to pursue every possible means to stop what is 
happening and the bloodshed there.
    I appreciate all of your efforts on it and I hope that they 
understand that we're very serious about that. We will, in 
Congress, look at actions we can take, too, because this is 
really wrong and they're on the wrong side of history, both 
with respect to the Syrian regime. They're on the wrong side of 
history with respect to Iran, and they will look back at this 
as a big mistake by both of these countries if they don't step 
up to the plate right now.
    I also wanted to ask about the Assad regime's relationship 
just with some of the groups that we have labeled terrorist 
groups. What's the Assad regime's relationship with Hezbollah?
    Secretary Panetta. That's probably better addressed in a 
closed session in terms of the specific relationship, but there 
has been a longstanding relationship between Hezbollah and 
Syria. It's actually diminished of late. Hezbollah has stood 
aside and hasn't directly been involved in some of the violence 
that's taken place in Syria.
    Senator Ayotte. Thank you.
    Also with Hamas?
    Secretary Panetta. Hamas the same, the same thing.
    Senator Ayotte. In fact, as I understand, at least based on 
public reports, Hamas is actually stepping back from the 
situation. Yet Iran has not stepped back?
    Secretary Panetta. Correct.
    Senator Ayotte. They're continuing to push forward.
    Secretary Panetta. That's right.
    Senator Ayotte. Let me ask you, does the violence that's 
happening in Syria have any impact on stability in Iraq?
    Secretary Panetta. Interestingly, there was a point at 
which, obviously, Iraq was standing to the side and not 
engaged. I think, as a result of what they've seen happening in 
Syria, that Iraq itself has now asked for Assad to step down 
and they are more engaged than they were in the past.
    Senator Ayotte. Do you view this as a positive step?
    Secretary Panetta. Yes.
    Senator Ayotte. Thank you both. My time is up. I appreciate 
your being before the committee today on such an important 
issue.
    Chairman Levin. Thank you, Senator Ayotte.
    We are planning on a closed session immediately following 
this, and if we succeed that means surely that there will only 
be one round here, and it is our plan to succeed.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, Mr. 
Secretary, and General Dempsey.
    General Dempsey, all of the military options which are 
beginning to be contemplated--the humanitarian corridors, 
limited aerial strikes, safe havens--all would presume that we 
would have complete control of the air space over Syria. Given 
what we know about their air defense systems, that would 
presume--I don't know if you can comment openly--that the first 
step in any type of military operation would be a campaign to 
suppress their air defense systems. Can you give us some 
general notion about how long that would take and how 
challenging it would be?
    General Dempsey. Senator, as I mentioned, we've 
demonstrated the capability to penetrate air defense systems 
for a discrete purpose in a very limited amount of time, and 
that stays; we still have that capability. As I mentioned, to 
conduct an enduring or a sustained campaign we would have to 
suppress the air defense. In closed session, we do have an 
estimate, based on gaming and modeling, of how long it would 
take to do that, given the density and the sophistication of 
their air defense system. But it would be an extended period of 
time and a great number of aircraft.
    Senator Reed. It would be, by the nature of our capability, 
presumptively led by the United States, rather than our NATO 
allies, because of our capabilities?
    General Dempsey. Almost unquestionably. We have the 
electronic warfare capabilities necessary to do that.
    Senator Reed. So from a perceptual view alone, the opening 
stages in any military operation would be an extended, almost 
exclusively air campaign by the United States against Syria, 
presumably supported politically by the Arab League, NATO, the 
EU, and everyone else. But the first kinetic part of the 
operation would be ours for several weeks before we actually 
started even going in and effectively protecting Syrians. Is 
that a fair judgment?
    General Dempsey. It is a fair judgment. We can only act 
with the authorized use of military force either with the 
consent of a nation, in our national self-defense, or with an 
U.N. Security Council Resolution (UNSCR). So we would have to 
have some legal basis. It would be my military advice that, 
whatever we do, we be part of a coalition, both because we 
increase our capability and capacity, but also we've shown that 
that produces an enduring outcome.
    Then we'd have to balance it against risk elsewhere in the 
region.
    Senator Reed. The other aspect is that in testimony 
yesterday General Mattis indicated that, unlike Iraq, there 
were no natural safe haven areas, the mountains. Also, I think 
unlike Iraq, there's no force, very well-organized that could 
provide even a limited self-defense. So creating these safe 
havens, there's a geographic challenge and there's also an 
institutional challenge. Who's going to physically defend them?
    We could have air power and try to interdict Syrian 
military convoys and tank columns, but that wouldn't work 100 
percent. So is that another challenge that you're considering?
    General Dempsey. Yes, it is a challenge. Again, in the 
context of this, as you note, the border with Iraq, the border 
with Jordan, the border with Israel, and the border with Turkey 
all have their own unique complexities. So I think we'd have to 
go through that.
    But I want to be clear. We can do anything. It's not about 
can we do it, but it's should we do it and what are the 
opportunity costs elsewhere and what are the risks.
    Senator Reed. In terms of opportunity costs, there are 
costs in collateral civilian casualties to air operations. 
There are costs in terms of time, a lot of time or some time to 
set up the operations. So that the notion that we can in a few 
hours or days quickly go in and establish superiority, stop the 
fighting, is not accurate.
    General Dempsey. You obviously have a military background, 
sir. [Laughter.]
    Senator Reed. I show up on time most times, if that's it.
    Secretary Panetta. Senator, if I could just point out, 
again we can discuss this in closed session, but what we've 
talked about is that air defense system that is pretty 
sophisticated. But more importantly, a lot of it is located in 
populated areas. There would be severe collateral damage in 
going after those areas.
    Senator Reed. Let me change the subject, Mr. Secretary, 
because we've talked on the military aspects, but there's a 
political aspect here. I'm not at all an expert on Syria, but 
what struck me in some of my reading is that there is a small 
Alawite clan of Shia who dominate the government, but the other 
minority sectors, the Syrian Kurds, the Syrian Christians, also 
seem to see their future most closely allied with Assad and his 
group. They are very influential, even though a minority, very 
influential. There has yet to be the creation of a truly 
national and credible opposition to Assad. So it's awfully 
difficult to build this or to get him off when there's nobody 
to take his place and there's still strong support in areas, in 
communities, that you wouldn't necessarily think would be 
supporting him.
    Is that part of the analysis that you looked at?
    Secretary Panetta. That's correct, and that's part of the 
problem. Having worked pretty closely on the Libyan situation, 
when there were some leaders that came to the front and were 
able to organize a council and it had credibility with the 
opposition, and unfortunately that's not the case here. There 
are some outside groups that are trying to organize, but there 
isn't the relationship with regards to what's happening in the 
country. As a result, it's very difficult to be able to know 
who we deal with there in terms of an opposition.
    Senator Reed. The only, the final point I'd make, is that, 
going back to military capacity in Libya--and again, I think 
the first point is we have to assume Syria is not Libya. But 
there, there seemed to be tribal paramilitary organizations. I 
don't get the same impression that outside the military there's 
any type of security forces, there's any kind of counterpoint; 
and that we would have to, unless there was a political 
solution to force Assad off, if he was going to be deposed it 
would have to be organized. We'd have to organize a force and 
that would take many, many months.
    General Dempsey. That's the current state of our thinking 
about how we might do this. If you think about two recent 
experiences: Libya, we had tribal forces on the east and west 
collapsing onto the center, essentially. Even in Afghanistan, 
we had the Northern Alliance collapsing on the center. There's 
no geographic density of opposition to collapse anywhere. 
They're all intermingled.
    By the way, it's 70 percent Sunni and 30 percent Druze, 
Christians, Alawi Shia. The Alawites have been in control and 
have essentially protected the others. So there is that dynamic 
as well.
    Senator Reed. Thank you very much, gentlemen.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Gentlemen, you discussed briefly with Senator Ayotte 
Russia's role in Syria.
    Mr. Chairman, I have an article in Reuters February 21, 
2012. The title is ``Russia boosts arms sales to Syria despite 
world pressure.'' I'd ask unanimous consent that that be made 
part of the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cornyn. I'm grateful to you for that.
    This article suggests that Russia has continued to supply a 
variety of weapons to Syria through an arms exporter by the 
name of Rosoboronexport. I guess, General Dempsey, I'm catching 
myself because I know you suggested some of this you'd like to 
go into in closed session.
    But let me ask, Secretary Panetta, General Dempsey, does 
Russia have a physical presence in Syria as part of their arms 
sales business?
    Secretary Panetta. They do.
    Senator Cornyn. What specifically, Secretary Panetta, is 
Russia's interest in Syria?
    Secretary Panetta. They've had a longstanding economic and 
military relationship in Syria. As we said, the port there in 
Syria is owned by the Russians. It's their port. So they've had 
a lot of shipping that's gone in there over the years. They've 
transferred not only military aid, but also economic assistance 
as well. So they've had a very longstanding relationship with 
Syria that makes them one of the key players. If they really 
wanted to assert the kind of responsibility they should, they 
would be a key player in bringing pressure on Assad.
    Senator Cornyn. Let me transition just a little bit to the 
Department of Defense's (DOD) business transactions with this 
same firm I mentioned to you earlier, Rosoboronexport, that is 
engaged in military sales of Russian weapons to Assad's regime. 
Reportedly, this company has signed a deal with the Syrian 
government to sell it 36 combat jets capable of hitting 
civilian ground targets.
    Can you confirm that?
    Secretary Panetta. I can't. I'd have to look into that.
    [The information referred to follows:]

    We cannot confirm that such a deal was signed. According to Russian 
press reports--citing a source close to Rosoboronexport, Russia's state 
arms export corporation--in late 2011, Moscow signed an agreement to 
sell 36 Yak-130 jet trainer aircraft to Syria. Senior Russia Government 
officials, when questioned about this deal, have reiterated that arms 
sales to Syria remain legal under international law, though they have 
not confirmed the agreement.

    Senator Cornyn. I don't mean to blind-side you. I'll 
certainly share this article with you, and I'd be interested in 
following up in greater detail.
    Rosoboronexport was sanctioned by the United States in 
October 2008 for assisting Iran's nuclear program, but those 
sanctions were lifted by the Department of State in May 2010. 
This is what I wanted to get to. It's my understanding the DOD 
has, through an initiative led by the U.S. Army, is currently 
buying dual-use Mi-17 helicopters for the Afghan military from 
this very same company.
    I'd like to know whether either one of you can confirm that 
at this point?
    General Dempsey. No, but I can certainly take that for the 
record. I can confirm we are buying Mi-17s for the Afghan 
military, but I can't confirm that that's the corporation 
providing them.
    Senator Cornyn. I understand that and I look forward to 
following up with you.
    [The information referred to follows:]

    Yes, the U.S. Army is purchasing Russian Mi-17 helicopters for use 
by the ANSF from Rosoboronexport. A response to the 12 March written 
inquiry on this same subject from Senator Cornyn and 16 other U.S. 
Senators is also forthcoming from the Secretary of Defense.
    The U.S. Army entered into a contract to procure 21 Mi-17 
helicopters from Rosoboronexport. Nine have been delivered, 6 are 
complete awaiting shipment, and the remaining 6 will be ready for 
delivery by the end of May. We have completed payment for all. The 
Department has also exercised an option for two additional aircraft and 
has a requirement from the NATO Aviation Training Command-Afghanistan 
for an additional 10 aircraft. Once this option is exercised, the 
contract will be complete. These aircraft are delivered in a full 
military mission ready configuration, including spare parts and a 1-
year warranty. The Mi-17 acquisition effort is critical to building the 
capacity of the ANSF. Our acquisition of these Mi-17 helicopters is 
part of our strategy to hand over the security of Afghanistan to the 
Afghan people. Rosoboronexport is the sole entity controlling export of 
military Mi-17 helicopters.
    The Combined Security Transition Command-Afghanistan identified an 
operational requirement, which was validated by the Commander, U.S. 
Central Command, for acquisition of Mi-17 helicopters for the Afghan 
Air Force (AAF). The decision to procure Mi-17s was made after 
considering and eliminating the Bell Huey II as an option. The Mi-17 
has proven operational capabilities in the extreme environments of 
Afghanistan. The Mi-17 has low technical complexity compared to other 
platforms, making it easier for AAF members to maintain and operate, 
while being supportable within Afghan educational limitations. A change 
in acquisition strategy would add additional aircraft types to the 
fleet and would complicate the maintenance, sustainment, and supply 
systems required to support the fleet. Introduction of a new helicopter 
to the AAF might require two additional years of U.S. assistance to 
Afghanistan.
    The purchase of Mi-17s from Rosoboronexport has reduced the risk of 
acquiring counterfeit aircraft or spare parts and has given us 
unprecedented access to original equipment manufacturer technical data 
that we would not otherwise receive. This ensures the safe operation 
and airworthiness of these aircraft, which are routinely flown by U.S. 
aircrews mentoring the AAF. Options for procuring used Mi-17s on the 
secondary market exist, but new Mi-17s are only manufactured in Russia. 
Since Mi-17s have fixed flight hour life limits that cannot be 
extended, sustained support to Afghanistan may require replacements for 
their oldest Mi-17s.
    Note: The termination of sanctions imposed on Rosoboronexport 
pursuant to Section 3 of the Iran, North Korea, and Syria 
Nonproliferation Act was effective 21 May 2010.

    Senator Cornyn. General Dempsey, can you explain why we 
would buy helicopters for the Afghan military from this arms 
exporter that's been sanctioned by the U.S. Government for its 
illicit activities with Iran, and which is the principal means 
by which Russia is arming Assad's regime and killing so many 
Syrians?
    General Dempsey. Assuming we are, because again I have to 
confirm or deny that we are, but assuming we are, as the 
process goes in a competition, if they're not sanctioned and 
enter the competition it could very well be that they ended up 
being the lowest bidder and therefore they could very well have 
been selected. But I can't confirm that. I have to get back to 
you, Senator.
    Senator Cornyn. I understand that.
    If, in fact, this article is correct, this means that, 
instead of creating jobs and selling American helicopters to 
the Afghan military, we are working with a Russian arms 
exporter to sell these Mi-17 helicopters, which makes 
absolutely no sense to me. But as you said and as I've said, I 
don't want to blind-side you with this information. I'd like to 
get an explanation.
    But if, in fact, if this report is true that this same arms 
dealer is arming Assad's regime and killing innocent Syrians 
and also under a contract with DOD to provide helicopters to 
the Afghan military, that causes me significant concerns, and I 
bet it does you, too. So I'd like to get to the bottom of that, 
if you will help me do that.
    General Dempsey, you talked about the need to balance the 
risks of intervening in Syria with other parts of the region. 
What would happen if Assad were to fall and the forces of 
democracy begin to, hopefully, take root in Syria? What would 
that do to Iran's aspirations in the region? What would that do 
to Hezbollah, a terrorist organization supported by Iran? What 
would that do to Hamas and what would that do to Lebanon? What 
would be the impact that you would hope for in the region?
    General Dempsey. As General Mattis testified yesterday, it 
would certainly diminish Iran's influence in the region and set 
back their aspirations of becoming a regional hegemon 
dramatically.
    Senator Cornyn. Mr. Chairman, thank you very much.
    Thank you, gentlemen.
    Chairman Levin. Thank you very much, Senator Cornyn.
    Senator Blumenthal is next.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your very forthright and also careful 
and cautious approach to this problem. I think many of us are 
approaching this issue with a high degree of humility, given 
the lack of complete or even reliable information and looking 
forward to knowing more as you brief us in a more secure 
setting.
    But even with all that care and caution, I'm struck, Mr. 
Secretary, by the certitude of your prediction that this regime 
will fall. You say: ``Make no mistake. One way or the other, 
this regime will meet its end.'' There are very few things in 
life that are inevitable and right now the Assad regime seems 
on the march. It seems to have momentum on its side. You have 
described very graphically how this opposition is less 
organized than the Libyan.
    So I think that's the reason that many of us here feel that 
we need to do more, that the United States needs to take a more 
aggressive and proactive role in this fight without--and I 
should stress--without American troops on the ground, no boots-
on-the-ground.
    That's the reason that Senator Graham and I are planning to 
introduce and cosponsor a resolution that will ask for 
condemnation of Assad for the war crimes that he is inflicting 
on his own people, the brutal and barbaric criminal actions 
against his own people, and the slaughter and massacre that's 
taking place, that will seek to send that message that you 
describe in your testimony that the United States will support 
the Syrian people.
    But, of course, there really need to be more than just 
words here. So let me begin by asking whether there is 
currently planning for the delivery of medical and other 
humanitarian aid to the opposition?
    Secretary Panetta. Yes, there is. Let me also mention, with 
regards to your prefacing remarks, it's always dangerous to 
make predictions in that part of the world, and what I'm giving 
you is the best assessment by our intelligence community as to 
the situation there in Syrian.
    But I also think that you shouldn't take it for granted 
that somehow we're going to sit back and allow the status quo 
to be the case. We are working very hard at trying to build the 
international coalition that we need. We're working hard at 
humanitarian aid. We're working hard at trying to do everything 
we can to try to bring additional pressure on Syria in order to 
ensure that Assad does step aside.
    Senator Blumenthal. Is humanitarian aid being delivered 
now?
    Secretary Panetta. We are delivering elements of 
humanitarian aid as we speak.
    Senator Blumenthal. How much? Can you quantify it?
    Secretary Panetta. $10 million was the case that we had. In 
Homs alone, we have U.S. Government partners that have 
delivered food for 4,000 households, and they've also delivered 
medical supplies. We're working with the international 
community to try to gain greater access, and the International 
Committee of the Red Cross and the World Food Program are 
working with the Syrian Arab Red Crescent to provide additional 
aid. So we're trying to do that on a broader front.
    Senator Blumenthal. I appreciate that information.
    How quickly and in what quantities could that humanitarian 
aid be increased?
    Secretary Panetta. I'm going to have to look at that and 
give you a more direct answer based on what the State 
Department and U.S. Agency for International Development are 
doing right now to try to increase that aid. I can give you a 
more explicit answer based on getting that information from 
them.
    [The information referred to follows:]

    Our priority, before and after Assad's departure, is getting 
humanitarian assistance into Syria. As you know, Secretary of State 
Clinton pledged $10 million in U.S. humanitarian assistance for Syria 
in the March Friends of Syria meeting in Tunisia, and she indicated 
that more aid would follow. These funds will help support makeshift 
medical facilities, train emergency medical staff, and get clean water, 
food, blankets, heaters, and hygiene kits to Syrian civilians in need. 
This assistance includes $3.5 million to the United Nations High 
Commissioner for Refugees, $3 million to the International Committee of 
the Red Cross, $3 million to the World Food Program, and support for 
other international nongovernmental partners.
    U.S. humanitarian efforts also include bolstering existing regional 
stockpiles of humanitarian supplies and equipment to be delivered to 
those Syrian communities in greatest need. The build-up of stockpiles 
of food and other emergency relief supplies are a result of the growing 
international effort to rush humanitarian aid into Syria to alleviate 
the suffering of vulnerable communities as access and conditions allow.
    Our ability to provide more humanitarian aid depends substantially 
on the conditions on the ground. The primary constraint facing the 
humanitarian organizations through and with which we work is a lack of 
safe, continuous access to affected populations--not a lack of funding, 
medical supplies, or other provisions.
    Over the coming weeks, we will continue to explore how we can best 
support humanitarian efforts in Syria, including whether and how to 
increase humanitarian assistance.

    Senator Blumenthal. Is planning underway to increase that 
aid?
    Secretary Panetta. That's correct.
    Senator Blumenthal. On communications equipment, which 
seems essential for a diverse and divided opposition to really 
launch a coordinated defense and offense, what is being done to 
provide communications equipment?
    Secretary Panetta. I'd prefer to discuss that in a closed 
session, but I can tell you that we are considering an array of 
non-lethal assistance.
    Senator Blumenthal. Is it fair to say that planning is 
ongoing to provide that assistance?
    Secretary Panetta. That is correct.
    Senator Blumenthal. Even though right now as we speak none 
is being provided?
    Secretary Panetta. That's correct.
    Senator Blumenthal. With respect to other technical 
assistance, putting aside for the moment the air strike 
capability, is other technical assistance being provided?
    Secretary Panetta. Plans are being made to provide an array 
of non-lethal assistance, including technical assistance.
    Senator Blumenthal. General Dempsey has very well described 
the time that it would take to suppress the aerial defense, but 
I take it that issue is not an obstacle to providing these 
other kinds of assistance?
    Secretary Panetta. That's correct.
    Senator Blumenthal. It could be done immediately?
    Secretary Panetta. That's correct.
    Senator Blumenthal. I would appreciate additional 
information to this committee as to what can be done, within 
what timeframes, short of air strikes.
    Is there support among any of the potential allies in 
military action for the kind of planning that you are doing? In 
other words, are specific countries volunteering specific 
contributions in potential military action?
    Secretary Panetta. That's again something I think we'd 
prefer to discuss in closed session. But there have been 
discussions in other countries about that.
    Senator Blumenthal. So that planning is underway, fair to 
say?
    Secretary Panetta. I'd rather discuss that in closed 
session.
    [The information referred to follows:]

    U.S. Government assistance-humanitarian supplies and communications 
equipment--includes items that the Syrian opposition has indicated 
would help in their efforts to organize. As implemented by the 
Department of State and U.S. Agency for International Development, we 
view this non-lethal assistance as critical to supporting our policy to 
hasten the fall of the Assad regime, and to move forward with a Syrian-
led democratic transition.
    We are working closely with our allies and partners, particularly 
Jordan and Turkey, to understand the dynamic composition of all 
elements of the Syrian opposition. Providing arms is not something we 
are considering now, as we believe it could heighten and prolong the 
violence in Syria. We remain focused on diplomatic efforts to increase 
pressure on, and the isolation of, the Assad regime.
    There is still no consensus within the international community 
regarding possible military intervention in Syria. However, the United 
States continues to plan for a range of contingencies with allies and 
partners.

    General Dempsey. Yes, I'd say it's risen to the level of 
collaboration; consultation, not planning.
    Senator Blumenthal. In order to do planning you would have 
to engage in that consultation; is that fair to say?
    Turning to the resolution that Senator Graham and I have 
proposed, do you think, a sense of the Senate that there should 
be an investigation and prosecution of Assad for war crimes 
would have an encouraging and positive effect on the 
determination of the Syrian people to resist this regime?
    Secretary Panetta. Senator, I'd prefer that you direct that 
question to the State Department because of the negotiating 
they're doing on a broader international front. I think you 
need to ask them the question whether this would be helpful.
    Senator Blumenthal. We'll do that.
    Let me just close, because my time has expired, by saying 
that I very strongly share Senator Cornyn's concerns about the 
sales of equipment by the same company that is arming the 
Syrians to the Afghan Government, helicopters that are being 
sold to the Afghanistan Government, by the very same company 
that is acting on behalf of the Russian Government to arm the 
Syrians. I share his concern that there appears to be a less 
than compelling reason to use Russian helicopters sold by 
Rosoboronexport in Afghanistan when we could be selling our own 
helicopters to them.
    I also ask, Mr. Chairman, that an additional article on 
that subject be made a part of the record. It is a July 24, 
2011, article from the Washington Times titled: ``Pro-Russia 
policy stalls Afghan copters.''
    Chairman Levin. It will be made a part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Panetta. Senator, we need to look at those 
reports. If those reports are true, we would share your same 
concern.
    Senator Blumenthal. There's no denial in the reports, for 
what it's worth, that it is true. There's no denial from any 
official sources. I would hope that we would have a response.
    Thank you so much for your service to the country and your 
very helpful testimony here.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    Because we would all be very much concerned with the issue 
that Senator Cornyn has raised and Senator Blumenthal just 
mentioned, we would hope that you'd give us the detail on that 
forthwith. Thank you.
    Senator Graham is next.
    Senator Graham. Thank you.
    I'm no helicopter expert, but I asked that question when I 
was over in Afghanistan about a year or 2 ago, and I was told 
that the helicopter in question is just a better fit for the 
Afghan military in terms of maintenance and capability. So that 
may not be the case. If there's an American helicopter that 
fits the needs of this, I'm all for them buying from us. But 
that's what I was told. So I'd like to hear more.
    Senator Blumenthal made a very good observation. I don't 
think any of us who want to be more involved in Syria believe 
that boots-on-the-ground is a good idea. They haven't been 
requested and certainly we're not anywhere near that point for 
me.
    I would like to build on what Senator Blumenthal asked. He 
asked a very good question. You basically said, Mr. Secretary, 
that Assad should be viewed as a war criminal. I think that's a 
good analysis to take.
    The U.N. Independent International Commission of Inquiry on 
Syria in February issued a report, 72 pages, but this is the 
sum and substance of it to me: ``Such violations''--talking 
about atrocities, gross human rights violations--``originated 
from policies and directives issued at the highest levels of 
the Armed Forces and the government.''
    Do you agree with that? Is that a pretty good 
characterization?
    Secretary Panetta. In Syria?
    Senator Graham. Yes.
    Secretary Panetta. In Syria, yes.
    Senator Graham. I think it is. Senator Collins and I were 
talking. The dilemma is if you go after him maybe it entrenches 
him.
    I've come to believe in situations like this that he's 
going to do what he's going to do, and if he were rational he 
wouldn't be doing what he's doing. But from his point of view, 
he obviously believes he's rational, and he's trying to just 
wait us all out and kill as many people as he can and hope we 
get tired of it and walk away.
    It would be really good for the Syrian people to know that 
the international community views what's being done to them as 
an outrage and that they would get support, morally and 
otherwise, from the idea that we all saw the abuses against 
them as unacceptable. So I don't know how it affects Assad, but 
I sure think it would help them.
    Now, let's get into the situation of what happens after he 
leaves. Do you really believe, Secretary Panetta and General 
Dempsey, that the people are going through this pain and 
suffering at the end of the day to replace Assad with al Qaeda?
    Secretary Panetta. No.
    General Dempsey. No, nor do I.
    Senator Graham. The real concern we have is that there are 
minorities in the country, the Alawites in particular, that 
could really be on the receiving end of some reprisals if we 
don't think about this; is that right?
    Secretary Panetta. That's correct.
    Senator Graham. In our efforts to find out what happens 
next, are we guiding the Syrian opposition in any way to form a 
plan? Are we involved with them?
    Secretary Panetta. Obviously that's the biggest challenge, 
because we are dealing with a pretty disparate group.
    Senator Graham. Are we trying to create order out of chaos?
    Secretary Panetta. Yes.
    Senator Graham. See, somebody's going to bet on the stock 
that follows Assad and I want to be on the ground floor of this 
new enterprise. I don't want to just show up after it's over. I 
want to get ready now and try to mold the outcome, and you 
don't have to have boots-on-the-ground to do that.
    But when it comes to what happens next, do you believe that 
if Assad were replaced by the will of the international 
community, led by the United States, that that may do more good 
regarding Iran's ambitions for nuclear weapons than sanctions, 
if they saw the international community take their ally down, 
that we had the resolve to do it?
    Secretary Panetta. It would certainly add to the impact of 
the sanctions to have this happen in convincing Iran that 
they're alone.
    Senator Graham. I just can't help but believe if their ally 
Syria went down because the international community led by the 
United States said enough is enough and did reasonable things 
to take him down, that that wouldn't have a positive impact.
    Now, when it comes to planning, Senator Blumenthal asked a 
lot of good questions about what we're doing and what we're 
planning. Am I wrong to assume that from your testimony the 
President of the United States has not requested a military 
plan regarding engaging Syria?
    General Dempsey. No, that's not correct. The President of 
the United States, through the National Security Staff, has 
asked us to begin the commander's estimate, the estimate of the 
situation.
    Senator Graham. That's good. So there is movement in 
process in DOD to provide the President some options; is that 
correct?
    Secretary Panetta. Correct.
    Senator Graham. Now, when it comes to China and Russia, do 
you believe they will ever change their tune at the U.N., that 
we'll ever get them on board for a U.N. resolution like we had 
in Libya regarding Syria?
    Secretary Panetta. I don't think it's totally out of the 
question. Both countries have been embarrassed, I think, by the 
stand that they took on the U.N. resolution.
    Senator Graham. But they can withstand a lot of 
embarrassment.
    Secretary Panetta. Yes.
    Senator Graham. If you were a betting man, do you believe 
that they will ever come on board?
    Secretary Panetta. If Russia wants to maintain its contacts 
with Syria, maintain their port, and have some involvement with 
whatever government replaces Assad, they might be thinking 
about an approach that would allow them to have some impact on 
where this goes. So I don't rule it out that they wouldn't----
    Senator Graham. Would you say that should not be our only 
option, that we should come up with a contingency plan in case 
Russia doesn't wake up one day and realize they're on the wrong 
side of history, that we have another way of engaging without 
China and Russia?
    Secretary Panetta. Absolutely.
    Senator Graham. Now, let's talk about the Arab League. The 
Arab League has changed mightily in the last year, haven't 
they, given their involvement in the Mideast?
    Secretary Panetta. They sure have.
    Senator Graham. Do you believe it's generated by the Arab 
Spring; that the Arab League was an association of dictatorial 
regimes that now are betting on the right side of history, and 
they see Assad as being on the wrong side of history, and 
that's incredibly encouraging?
    Secretary Panetta. Absolutely.
    Senator Graham. Don't you think in our long-term national 
security interests we have a window in time here to marry up 
with the Arab League in terms of military, humanitarian, 
economic, follow-on assistance to the countries that have 
people who are saying, I'm tired of being led by dictators? Are 
we doing enough to seize that moment in history?
    Secretary Panetta. I can assure you that Secretary Clinton 
and I are working with our Arab League partners to try to do 
everything we can to develop and maintain the coalition that 
was established with Libya, but to maintain it as a continuing 
influence over what happens elsewhere in that region.
    Senator Graham. My final thought is that if the slaughter 
continues I do believe that the world, including the United 
States, has the capability to neutralize the slaughter through 
air power. Given the way the world is and the way Syria is, is 
there a likelihood, even a remote possibility, that if we 
engaged the artillery forces and the tank drivers who are 
killing people who basically have AK-47s, that maybe the other 
people in tanks would get out and quit if we blew up a few of 
them?
    General Dempsey. There's certainly that possibility.
    Senator Graham. I think that is a high likelihood.
    Thank you both for your service.
    Chairman Levin. Thank you, Senator Graham.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Secretary Panetta, General Dempsey, thank you both very 
much for being here.
    I want to follow up on the issues that have been raised 
about arms shipments from Russia and China. Reports are that 30 
percent of Syrian arms come from China and North Korea. You 
talked a little bit about the Russian perspective, but I'm not 
clear whether we think there is any way to engage the Chinese 
on this issue. Is this something the international community 
has developed a strategy on for how to prevent or reduce future 
arms shipments from Russia and China?
    Secretary Panetta. The international community is concerned 
about what you just discussed, and the international community, 
led by the United States, is trying to engage both Russia and 
China to try to see if we can change their approach to Syria.
    General Dempsey. Senator, if I could, we said here this 
morning that it's very clear and documented that Russia has an 
arms sale agreement with Syria. We've also said we need to get 
back to you on whether China does. I don't know the answer to 
that question.
    Senator Shaheen. That comes from published reports.
    I appreciated what you both had to say about our efforts 
around humanitarian aid. I think most of us looking at the 
pictures, the reports on the news, the pictures in the 
newspapers of the slaughter that's going on inside Syria, are 
very concerned about the cost in human lives, particularly for 
civilians, the women and children who have been killed.
    Obviously, as the result there have been a lot, thousands 
of refugees who are going over the borders. First of all, is 
there more that we can or should be doing to address those 
refugees who are fleeing, as well as the humanitarian efforts 
on the ground in Syria that you talked about?
    Then can you also address concerns that we might have about 
the destabilizing effect that refugees might have, particularly 
in Lebanon?
    Secretary Panetta. We are doing everything we can to expand 
the humanitarian effort. There is more that can be done and 
that needs to be done. Indeed, one of the options we're looking 
at is whether or not to establish these humanitarian zones to 
try to assist the refugees in a more effective way.
    The refugee flows, if they continue at the rate that we see 
are clearly going to have an impact on the neighboring 
countries. We've already seen that happening.
    General Dempsey. Could I add, Senator? Having lived over 
there for more than 5 years, refugees, because of family and 
tribal relationships, they're hard to pin down actually, how 
many and where they are, because they blend in.
    Senator Shaheen. Sure.
    General Dempsey. So during the Iraq war there were many 
Iraqi Sunni al Anbar refugees that flowed into Syria, and what 
we're seeing is some of them are flowing back now. We think 
maybe 15,000 from Syria into Jordan, maybe 10,000 into Lebanon, 
maybe 10,000 into Turkey. The way you first learn about it is 
when they put demands on the host nation medical system and 
some other things.
    So the answer to the question is yes, of course there's 
more we can do and should. We have to do it through the host 
nations because they really understand this in a way that we 
can't.
    Senator Shaheen. How engaged are the Arab League and the 
European community in supporting these kinds of humanitarian 
efforts?
    Secretary Panetta. They're very engaged, and we are working 
with the international community and the Arab League in 
addressing the humanitarian issue.
    Senator Shaheen. Thank you.
    To go on to Syria's weapons arsenal, I know that there have 
been reports that they have the biggest chemical weapon arsenal 
in the world. I had a chance to ask General Mattis about this 
yesterday, about what concerns we have should Assad fall, about 
the security of those arsenals and what potential threat to the 
rest of the region they might present. Can you address that?
    General Dempsey. I can address it in great detail in closed 
session.
    Senator Shaheen. Okay. I appreciate that.
    Senator Collins, Senator Gillibrand, and I sent a letter to 
the administration expressing our concerns about this.
    Secretary Panetta. Senator, there's no question that they 
have huge stockpiles and that if it got into the wrong hands it 
would really be a threat to the security, not only of the 
regional countries, but to the United States.
    Senator Shaheen. Recognizing that you don't want to address 
this in an open session, but can you compare it to the 
situation that we found in Libya last year? I know 20,000 
Manportable Air-Defense System (MANPADS) disappeared in Libya. 
So how do we compare this situation?
    Secretary Panetta. It's 100 times worse than what we dealt 
with in Libya, and for that reason that's why it's raised even 
greater concerns about our ability to address how we can secure 
those sites.
    Senator Shaheen. Thank you. Are there new sanctions the 
administration and Congress could enact that would further 
dissuade other countries who might be assisting Syria either 
directly or inadvertently to try and continue to isolate Syria 
and those countries who are helping?
    Secretary Panetta. There are. I have to tell you, one of 
the things that has really come together are the sanctions that 
have been put in place. They target senior leadership and their 
assets. They're hampering foreign transactions. There's been a 
gross domestic product (GDP) decline from a minus 2 to a minus 
8 percent. So the GDP has taken a hit from the sanctions. 
There's a loss of revenue, 30 percent loss of revenue due to 
the oil embargo that's taking place, and that's continuing to 
have an impact. There's been almost a 20 percent currency 
depreciation.
    Senator Shaheen. So do we think there's a possibility that 
Assad is just going to run out of money if this continues 
indefinitely?
    Secretary Panetta. They'll always struggle to find ways 
around some of this, but this is squeezing him badly and they 
are at least in the process of running out of money.
    Senator Shaheen. Thank you very much.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Sessions.
    Senator Sessions. Thank you.
    Thank you, both of you, for your service to the country.
    I had the opportunity to travel a few weeks ago with 
Senators McCain and Graham and Blumenthal and others to the 
Middle East. I think there is a sense, in Senator McCain's vast 
experience in this region, that the United States' position 
clearly spoken does impact people. Revolutions and people are 
standing up against oppressive regimes are encouraged and 
emboldened if they sense the United States clearly articulates 
the justice of their cause.
    I think we've been a bit weak on that. In Iran, when we had 
the revolution there, the protests there, that was a window of 
opportunity I am really, really disappointed we didn't somehow 
participate more positively in.
    So I don't know. I believe you said, Secretary Panetta, or 
maybe General Dempsey, there's a difference between contingency 
planning and a commander's estimate. What is the difference?
    General Dempsey. The commander's estimate, the acronym is 
``METTT.'' What are the potential missions, what is the enemy 
order of battle, what are the enemy's capabilities or potential 
enemies, what are the troops we have available, and how much 
time? So mission, enemy, terrain, troops, and time or METTT. 
That's a commander's estimate.
    Senator Sessions. You're looking at that?
    General Dempsey. Yes.
    Senator Sessions. Have you completed that?
    General Dempsey. Yes.
    Senator Sessions. You said, Secretary Panetta, that you're 
waiting on the President before doing contingency planning. 
What would be the contingency planning? What would be the next 
level?
    General Dempsey. The next level of detail would be for us 
to take actual units from someplace else and apply them against 
that template in order to come up with operational concepts, 
how would we do it.
    Senator Sessions. If you were another nation that was 
potentially interested in helping in this situation, wouldn't 
you be a little more impressed if we'd gone further in our 
detail? Does it not suggest that we are really not that 
interested in taking action if we have not gone further?
    Secretary Panetta. No, not at all. I think the assumptions 
that we've worked through, we've discussed them with the 
President, we've discussed them with the National Security 
Council. We are in the process of developing even further ideas 
with regards to some of those options. Ultimately, obviously, 
when the President makes the decision as to what course he 
wants to take in line, obviously, with our international 
partners, we'll be ready to go.
    Senator Sessions. You said that we'll take our time 
earlier, and when we do, it will be well-prepared. But I have 
to say, Senator Blumenthal and others have raised the question 
of whether or not this window is not already closing. Dictators 
have successfully crushed revolutions many times in history. 
How confident are you that this--I know you have an estimate, 
but I don't see how an estimate that this country--that Assad's 
about to be toppled can be justified based on what we're seeing 
just publicly on the ground.
    Secretary Panetta. Senator, the fundamental issue that is 
before us is whether or not the United States will go ahead and 
act unilaterally in that part of the world and engage in 
another war in the Muslim world unilaterally, or whether or not 
we will work with others in determining what action we take. 
That's the fundamental decision that needs to be made.
    Senator Sessions. Isn't there a window, and can you say 
with certainty that, even in a matter of a few weeks, that 
Assad may have reestablished his control in the country and 
there would be no likelihood of his regime toppling?
    Secretary Panetta. According to the intelligence estimates 
that I have seen, this insurgency is not only continuing, but 
it's growing wider. When that happens, it's going to continue 
to put a tremendous amount of pressure on Assad.
    Senator Sessions. Maybe that's--I hope that's true and I 
hope that we don't miss an opportunity here. I know Senator 
Kerry and Senator McCain said use a no-fly zone over Libya. A 
long time went by before that was done. Many believe, I think 
Senator McCain believes, I believe, that had they been listened 
to early there might have been fewer casualties and the regime 
might have collapsed sooner.
    So I just would say I value your opinion on this, because 
you know more detail than I do.
    General Dempsey, in one of your criteria for determining 
what we might do militarily you say you have to ask the 
question of whether the action is worth the cost and is 
consistent with law. What law does the U.S. military look to?
    General Dempsey. If I could, I'd like to address both since 
they are related. So cost, resources, risk incurred elsewhere 
by the use of force one other place. It's a zero-sum game. We 
take them from someplace else, we use them for how long. That's 
the kind of issue of cost, and the question of blood and 
treasure.
    The issue of legal basis is important, though. Again, we 
act with the authorized use of military force either at the 
consent of a government, so when we're invited in, or out of 
national self-defense, and there's a very clear criteria for 
that. Then the last one is with some kind of international 
legal basis, an UNSCR.
    Senator Sessions. Wait a minute. Let's talk about an 
international legal basis. You answer under the Constitution to 
the U.S. Government, do you not? You don't need any 
international support before you would carry out a military 
operation authorized by the Commander in Chief.
    General Dempsey. No, of course not. That's the second one.
    Senator Sessions. I just want to know that, because there's 
a lot of references in here to international matters before we 
make a decision. I want to be sure that the U.S. military 
understands, and I know you do, that we're not dependent on a 
NATO resolution or a U.N. resolution to execute policies 
consistent with the national security of the United States.
    Now, Secretary Panetta, in your talk, in your remarks, you 
talk about: first, we are working to increase diplomatic 
isolation and encouraging other countries to join the EU and 
the Arab League in imposing sanctions. Then you note that China 
and Russia have repeatedly blocked the U.N. Security Council 
from taking action.
    Are you saying and is the President taking the position he 
would not act, if it was in our interest to do so, if the U.N. 
Security Council did not agree?
    Secretary Panetta. Senator, when it comes to our national 
defense, we act based on protecting the security of this 
country and we don't look for permission from anybody else when 
it comes to our national defense.
    When it comes to the kind of military action where we want 
to build a coalition and work with our international partners, 
then obviously we would like to have some kind of legal basis 
on which to do it, as we did in Libya.
    Senator Sessions. Now, some sort of legal basis. We're 
worried about international legal basis, but nobody worried 
about the fundamental constitutional legal basis that this 
Congress has over war. We were not asked, stunningly, in direct 
violation of the War Powers Act. Whether or not you believe 
it's constitutional, you certainly didn't comply with it. We 
spent our time worrying about the U.N., the Arab League, NATO, 
and too little time, in my opinion, worrying about the elected 
representatives of the United States.
    As you go forward, will you consult with the United States 
Congress, and can we be assured that you will have more 
consultation and more participation and legal authority from 
the duly elected representatives?
    Secretary Panetta. Believe me, we will. We don't have a 
corner on the market with regards to issues involving our 
defense. We want to consult with Congress. We want to get your 
best advice and your guidance. When we take action, we want to 
do it together.
    Senator Sessions. Do you think that you can act without 
Congress and initiate a no-fly zone in Syria, without 
congressional approval?
    Secretary Panetta. Again, our goal would be to seek 
international permission and we would come to Congress and 
inform you and determine how best to approach this. Whether or 
not we would want to get permission from Congress, I think 
those are issues we would have to discuss as we decide what to 
do here.
    Senator Sessions. I'm almost breathless about that, because 
what I heard you say is: We're going to seek international 
approval and we will come and tell Congress what we might do, 
and we might seek congressional approval. I want to just say to 
you, that's a big--wouldn't you agree? You served in Congress. 
Wouldn't you agree that that would be pretty breathtaking to 
the average American? So would you like to clarify that?
    Secretary Panetta. I served with Republican Presidents and 
Democratic Presidents, who always reserved the right to defend 
this country, if necessary.
    Senator Sessions. But before we do this you would seek 
permission of the international authorities?
    Secretary Panetta. If we're working with an international 
coalition and we're working with NATO, we would want to be able 
to get appropriate permissions in order to be able to do that. 
That's something that all of these countries would want to have 
some kind of legal basis on which to act.
    Senator Sessions. What legal basis are you looking for? 
What entity?
    Secretary Panetta. Obviously, if NATO made the decision to 
go in that would be one. If we developed an international 
coalition beyond NATO, then obviously some kind of U.N. 
Security Resolution----
    Senator Sessions. So a coalition of--so you're saying NATO 
would give you a legal basis and an ad hoc coalition of nations 
would provide a legal basis?
    Secretary Panetta. If we were able to put together a 
coalition and were able to move together, then obviously we 
would seek whatever legal basis we would need in order to make 
that justified. We can't just pull them all together in a 
combat operation without getting the legal basis on which to 
act.
    Senator Sessions. Who are you asking for the legal basis 
from?
    Secretary Panetta. Obviously, if the U.N. passed a Security 
Council Resolution, as it did in Libya, we would do that. If 
NATO came together, as we did in Bosnia, we would rely on that. 
So we have options here if we want to build the kind of 
international approach to dealing with the situation.
    Senator Sessions. I'm all for having international support, 
but I'm really baffled by the idea that somehow an 
international assembly provides a legal basis for the U.S. 
military to be deployed in combat. I don't believe it's close 
to being correct. They provide no legal authority. The only 
legal authority that's required to deploy the U.S. military is 
Congress and the President and the law and the Constitution.
    Secretary Panetta. Let me just for the record be clear 
again, Senator, so there's no misunderstanding. When it comes 
to the national defense of this country, the President of the 
United States has the authority under the Constitution to act 
to defend this country and he will. If it comes to an operation 
where we're trying to build a coalition of nations to work 
together to go in and operate, as we did in Libya or Bosnia, 
for that matter Afghanistan, we want to do it with permissions 
either by NATO or by the international community.
    Senator Sessions. I'm troubled by that. I think that it 
does weaken the ability of the United States to lead. If we 
believe something ought to be done, I'd be thinking we would be 
going more aggressively to NATO and other allies, seeking every 
ally that we can get. But I do think ultimately you need a 
legal authority from the United States of America, not from any 
other extraterritorial group that might assemble.
    Thank you, Mr. Chairman.
    Chairman Levin. I wonder, Senator Webb, if you would yield 
to me just for one moment. I won't take it off your time.
    Senator Webb. Certainly, certainly.
    Chairman Levin. I would just like to clarify that last 
point, because you used the word ``permission'' at times as 
being helpful to achieving an international coalition. You 
don't need any authority from anybody else, any permission from 
anybody else, if we're going to act alone. You've made that 
clear. You said it three times. I think that's essential.
    But what you, as I understand it, are saying is that if 
you're seeking an international coalition it would help if 
there is a legal basis internationally in order to help obtain 
that legal coalition. I don't think the word ``permission'' is 
appropriate even in that context, by the way. I think you 
really corrected it when you said a legal basis in 
international law would help you achieve an international 
coalition.
    Secretary Panetta. That's correct.
    Chairman Levin. If you're seeking an international 
coalition, having that kind of international legal basis will 
help. I think that's what you're trying to say and I hope that 
is what you're trying to say.
    Secretary Panetta. That's what I'm trying to say.
    Chairman Levin. Okay.
    Secretary Panetta. Thank you.
    Chairman Levin. Senator Webb.
    Thank you, Senator Sessions.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Senator Sessions is raising an important 
point.
    Senator Webb. Senator Sessions is. I don't want to eat up 
too much of my own clock on this, but----
    Chairman Levin. You have the time that's allotted.
    Senator Webb.--I would like to clarify a point that has 
been a concern to me on this very same issue. That is the 
difference between the United States acting unilaterally if we 
decide it's within our national interest and it's something 
that you, Mr. Secretary, have raised in terms of the situation 
in Syria--there's a difference between that and the President 
deciding to act unilaterally in an area that arguably has not 
been defined as a national security interest.
    I made floor remarks on this. I have a great deal of 
concern when you look at the Libya model, where the basic 
justification has been humanitarian assistance, which is very 
vague and it's not under the historical precepts that we have 
otherwise used, like a treaty if you're talking about NATO, or 
defending Americans who have been captured, as in Grenada, or 
retaliating for a certain act, as we did in Libya, say, in 
1986, when I was in the Pentagon.
    So, I think, Senator Sessions has raised a point of 
concern, and I would like to just put a parentheses around 
that, but hold the thought. I think there definitely is room 
for some very serious discussion here in Congress on the way 
that the President, any President, can decide unilaterally to 
use military action in this rather vague concept of 
humanitarian assistance.
    But to set that aside, what I really would like to talk 
about today are my thoughts about your testimony, and I would 
like to say very specifically that I found both of your 
testimonies with respect to the situation in Syria very 
reassuring. It was very careful and forthright. I think there's 
a lot of wisdom in the approach that you're taking on this.
    I think when people are talking about the need for 
leadership, we need to understand and we need to have a little 
sense of history here. Leadership is not always taking 
precipitate action when the emotions are going. It's in 
achieving results that will bring about long-term objectives. 
Probably the greatest strategic victory in our lifetime was the 
Cold War. That was conscious, decades-long application of 
strategy with the right signals with respect to our national 
security apparatus.
    There's no one in the world that will doubt the ability of 
the United States to put lethality on the battlefield if we 
decide to do it. But that's not really always the question when 
we're developing these kinds of policies, at least not the 
first question. I thought your testimonies were very clear on 
that from both of you.
    Secretary Panetta, your comment about each situation is 
unique. General Dempsey, I think your example of the danger of 
looking at this through a straw is probably the best way to put 
it. We have to look at all of the ramifications in these sorts 
of matters.
    I think the principles that you've laid down, we should all 
support this type of logic: to forge an international 
consensus, to translate the consensus into acts, and to at 
least express our hope that this change can be brought about 
through a peaceful political transition. I was taking notes as 
you made your testimony, Secretary Panetta.
    I want to ask you about one thing that you said because I 
think we all need to think about it. You said, I think this is 
a direct quote, I'm an old journalist here, I can write fast: 
``Any government that indiscriminately kills its own people 
loses its legitimacy.''
    Would you say that is a statement of the policy of the 
United States?
    Secretary Panetta. I would.
    Senator Webb. Would you believe that with the circumstances 
in Tiananmen Square 1989, when the Chinese government turned 
its own soldiers loose and its own tanks loose on its own 
people and killed more than 1,000 people, would you say that 
fits into this statement?
    Secretary Panetta. Let me put this on a personal view. My 
personal view would be that that was the case there.
    Senator Webb. I think it also illustrates your comment that 
in policy terms each situation is unique and that we have to 
try to use the best building blocks we can in order to best 
address these types of situations, depending on where they 
happen and what other capabilities any one of these governments 
might have.
    This is something, I actually held a hearing on this in the 
Senate Foreign Relations Committee, talking about what might be 
viewed as the situational ethics in terms of American foreign 
policy. But it clearly demonstrates that you can't--there's no 
one template here when we're attempting to resolve differences 
in philosophy and policies with different countries.
    So I would say that I do believe your exchange with Senator 
Sessions may have been lost in translation because it went back 
and forth so much, but I do believe Senator Sessions has a very 
valid point in terms of presidential authority. But I strongly 
support the analytical matrix, the policy matrix, that you are 
putting into place with respect to Syria.
    I thank you for your testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, I think that this hearing and discussion this 
morning, as well as yesterday, demonstrate how difficult the 
challenge is that is posed by Syria. I don't think this lends 
itself to an easy solution, as appalled as we all are by the 
slaughter of the innocent civilians in Syria.
    One of the options that I'd like to return to which has 
been discussed today is whether or not we should try to arm 
elements of the Syrian opposition. I think this too is a 
difficult issue. Although, Mr. Secretary and General Dempsey, 
you both responded to a question from Senator Graham that you 
don't think al Qaeda's the ultimate victor, if you will, once 
the regime falls. When Secretary Clinton testified at a House 
hearing last week, she raised the question of, if we arm, who 
are we arming? She specifically noted that Zawahiri of al Qaeda 
is backing the Syrian opposition.
    Her comment recalled to me the situation in Afghanistan, 
where some of the groups that we armed in the 1980s are now 
some of the same people who are attacking American soldiers 
today, perhaps using some of those same arms.
    So, General, if the United States or another country or 
even an international coalition chose to arm opposition groups 
in Syria, what's your assessment of the risk that we might be 
taking that we could end up arming terrorist groups or other 
enemies that are hostile to the United States or to Israel or 
to other allies in the region?
    General Dempsey. If you sense any reluctance on my part at 
this point, it's because I can't get my intellect around that 
risk. I just can't understand it yet. But I will tell you that 
the President's been very directive with the intelligence 
community that that's what has to happen, that we have to be 
able to understand the opposition. To the extent we can, we 
should help it coalesce into something that's understandable 
and definable, coherent enough. Then if we ever do reach a 
decision to arm the opposition, it just can't simply be arming 
them without any command and control, without any 
communications, because then it becomes a roving band of 
rebels, and I think we can do better than that. But we're not 
there right now.
    Senator Collins. Secretary Panetta?
    Secretary Panetta. Senator, one thing we found in this 
region of the world is that once you provide these arms, there 
are no boundaries as to where they can wind up. We saw that 
happen in Libya and we are seeing evidence of some of the 
weapons used there popping up in the Sinai and elsewhere. If we 
provide arms in Syria, we have to have some sense that they 
aren't just automatically going to wind up going to Hezbollah, 
going to Hamas, going to al Qaeda, going to other groups that 
would then use those weapons for other purposes.
    Senator Collins. I think that's an extremely difficult 
issue as we look at whether or not to encourage the provision 
of arms or to provide arms ourselves.
    Senator Shaheen and I have been working on the MANPADS 
issue with Libya. We've been very concerned about that. As you 
say, the situation in Syria makes the Libyan situation pale by 
comparison, plus Syria has, as I understand it, large 
stockpiles of chemical and biological weapons as well. So it's 
a very difficult issue.
    I want to get your assessment of the NATO Secretary 
General's comment last week when he said that NATO would not 
get involved in Syria because western assistance would be 
insufficient to solve the crisis. He said that: ``NATO could 
not bring about a sustainable solution to the problem,'' and 
instead he advocated for an Arab League-led effort to the 
crisis.
    First, I would ask what your general reaction to the 
Secretary General's statement was, Mr. Secretary. Second, can 
we expect military and humanitarian assistance from the Arab 
League?
    Secretary Panetta. First of all, I understand his concerns 
about the situation in Syria from a military perspective, 
because we share some of the same concerns. At the same time, I 
think that NATO in the very least ought to take a look at the 
situation there and determine whether or not they could play an 
important role there.
    The fact is, when you look at Libya, even though NATO was 
there, we had partners in the Arab community that joined that 
coalition that were very helpful to the operation there. It's 
that kind of coalition that can work very effectively.
    Turning to the Arab League, the Arab League obviously is 
working to try to develop an approach here. Individual nations 
are looking at different ways to try to provide assistance of 
one kind or another. But the Arab League itself doesn't have 
the capability that NATO has to be able to engage militarily, 
if necessary.
    Senator Collins. I was in Turkey recently and obviously 
Turkey historically had good relationships with Syria, but the 
Prime Minister has been very strong in calling for Assad to 
step aside and indeed has provided sanctuary for the FSA within 
its borders. What advice are we getting from the Turks on what 
approach we should be taking towards Syria? Are there 
conversations ongoing with Turkey?
    Secretary Panetta. Yes, there are. Turkey has actually 
exercised very responsible leadership with regards to the 
issue. Obviously, they have a direct concern because it is a 
border country, but they have called for Assad to step down. We 
have engaged with them on consultation with regards to the 
concern over the chemical and biological sites that are located 
there, and we're continuing to consult with them with regards 
to refugees as well.
    But the answer to your question is that Turkey is playing a 
very responsible role in dealing with this issue.
    Senator Collins. Thank you.
    Mr. Chairman, would you allow me one very quick final 
question?
    Chairman Levin. Yes, please.
    Senator Collins. Thank you.
    General Dempsey, is Iraq playing a positive role in 
actually interdicting the transshipment of supplies, 
ammunition, and weapons? It's really straddling the 
communications and transportation lines between the two 
countries.
    General Dempsey. Iraq has done two things that I view as 
quite positive. One was, as the Secretary mentioned, the 
statement that they too now advocate Assad stepping down. So 
that's on the political side.
    On the issue of Iranian shipments crossing through their 
air space, they have, in fact, demarched Iran to cease doing 
that. They have requested--remember now, they don't have the 
ability to control their air space. They can't interdict anyone 
crossing it. But they have on more than one occasion insisted 
that Iranian air flights across Iraq would land to be 
inspected, and at their insistence once that occurred the 
flights were delayed and in some cases we believe to allow the 
offloading of the shipment, so that it wasn't identified when 
it landed in Iraq.
    So they are, they are trying. But again, they don't have 
much capability to do anything beyond diplomatic engagement.
    Senator Collins. Thank you both.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    We're now going to move directly to SVC-217 in the Capitol 
Visitor Center for our closed session. Thank you both. This 
hearing stands adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Claire McCaskill

                             SYRIAN WEAPONS

    1. Senator McCaskill. General Dempsey, the outcome of the current 
conflict in Syria will have strategic repercussions throughout the 
region. We know the Syrian regime has a substantial chemical-biological 
weapons capability, a significant integrated air defense system, 
thousands of shoulder-launched anti-air missiles, and a wholly 
unsustainable political hierarchy. The Syrian security situation 
continues to deteriorate as the Assad regime escalates the level of 
lethal force employed upon its own people. As a result, the regime is 
battling for its survival against a popular uprising, raising the 
prospect of a civil war. Also, according to your testimony, the options 
available to address the situation are extremely challenging. Based on 
our intelligence of the make-up of the opposition, would it be possible 
for the international community to provide arms to the rebels without 
running the risk that those weapons could fall into the hands of al 
Qaeda forces operating in Syria?
    General Dempsey. Based on our understanding of the armed Syrian 
opposition and deteriorating economic conditions inside Syria, it would 
be impossible to eliminate the risk of foreign-provided weapons falling 
into the hands of any of the various extremist groups operating inside 
Syria, to include al Qaeda. Although al Qaeda is operating in Syria, 
our assessment is that the opposition forces may be unaware that they 
have al Qaeda cells in their midst. The international community could 
certainly take a variety of actions to ensure that weapons are 
initially delivered to the ``right'' opposition forces. However, the 
nature of the fight and the lack of organization and cohesion among the 
opposition forces could lead to weapons finding their way into the 
wrong hands.

    2. Senator McCaskill. General Dempsey, what are the most 
significant risks of providing arms to the Syrian opposition?
    General Dempsey. A significant risk is that foreign-provided arms 
might fall into the hands of any of the various extremist organizations 
that are currently operating in and around Syria. Such groups, 
including al Qaeda, seek to exploit deteriorating security conditions 
in Syria, exacerbate sectarian tensions, and threaten U.S. interests by 
destabilizing our allies in neighboring countries. An additional 
concern is that those weapons might empower elements of the opposition 
who do not share our interests in a democratic, pluralistic, and 
inclusive Syria that respects the rights of Syria's substantial 
minority communities. Finally, there is a substantial risk that better 
armed opposition elements operating independently of any political 
process would simply increase levels of violence in Syria and further 
inflame sectarian tensions--making any eventual political 
reconciliation that much harder to achieve.

    3. Senator McCaskill. General Dempsey, what other options should 
the international community consider that would reduce the chance of 
providing support to groups that run counter to U.S. security 
interests, such as al Qaeda, while still applying pressure against the 
Assad regime?
    General Dempsey. The United States is working with the 
international community to increase pressure against the Assad regime 
and all options remain on the table. Currently, the Assad regime is 
conflating the opposition's use of force with al Qaeda-type terrorist 
attacks in order to discredit the opposition and promote a self-serving 
narrative that regime forces are actually defending--rather than 
oppressing--Syria's people. We are also aware of violent extremist 
intentions to exploit any security vacuum in Syria to further their own 
political objectives. Consequently, I believe the international 
community should exhaust all options for facilitating a managed 
political transition in Syria before seeking to effect such a 
transition via military means.

    4. Senator McCaskill. General Dempsey, should the Syrian regime 
collapse, have precautions been taken or are there plans in place to 
ensure that the Syrian stockpile of chemical-biological weapons will 
not fall into the hands of groups that oppose U.S. interests?
    General Dempsey. Yes. We have a plan in place that covers a wide 
range of potential scenarios and provides options to address those 
scenarios. We also continue to work with our allies and regional 
partners to share information and coordinate activities. The United 
States and our allies are closely watching the security and disposition 
of Syria's unconventional weapons.

    5. Senator McCaskill. General Dempsey, if the United States decided 
to support airstrikes on Syria, how much of a risk does the air defense 
system and anti-air missiles pose to our aircraft?
    General Dempsey. [Deleted.]

    6. Senator McCaskill. General Dempsey, can we mitigate the risk 
posed to our aircraft by the Syrian air defense system and anti-air 
missiles?
    General Dempsey. We can best mitigate the risk posed to our 
aircraft from these systems by destroying them. Any other course of 
action would result in an enduring risk to our aircraft. Destruction 
would require attacking surface-to-air missile (SAM) launchers, radars, 
and their command and control. Mobile SAM systems would be challenging 
and would require our aircraft to rely heavily on onboard defensive 
systems and tactics for protection until the mobile SAMs were engaged. 
With the large number of mobile SAMs in Syria, it will be challenging 
to ensure we have destroyed every mobile SAM.
    Attacking mobile SAM systems may provoke retaliation in the form of 
ballistic missile attacks on U.S. forces or allies and risk widening 
the conflict. There is the possibility of collateral damage if targeted 
SAM sites are located in populated areas. However, a sustained air 
presence over Syria to protect humanitarian corridors or establish a 
no-fly zone would require a sustained air campaign to defeat the 
integrated air defense systems.

                          SYRIAN REGIME CHANGE

    7. Senator McCaskill. General Dempsey, is it reasonable to think 
that if the Assad regime collapses, with or without U.S. assistance, 
that the Syrian Government that arises after the collapse will 
cooperate with the United States and the international community?
    General Dempsey. Depending on how long it takes for the Assad 
regime to collapse, and how much damage is done to the multi-
confessional fabric of Syrian society during the process, it is 
possible that no cohesive Syrian Government will emerge with which the 
United States and international community could cooperate. If the Assad 
regime were replaced by a government that manages to maintain Syria's 
national unity such a government might be inclined to cooperate with 
the international community in exchange for economic and security 
assistance.

    8. Senator McCaskill. General Dempsey, what players already exist 
in Syria that will almost certainly vie for power if the Assad regime 
collapses?
    General Dempsey. Information on opposition groups operating inside 
Syria's cities and villages is limited, and it cannot be ruled out that 
local leaders and groups, of which we currently know little, could 
emerge to compete for power should the Assad regime fall. Likewise, the 
means by which Assad is eventually removed will have an impact on who 
is best positioned to compete for power. If Assad is removed through 
military force, the armed groups responsible for his overthrow are 
likely to demand the largest share of power in a post-Assad Syria.
    If the conflict in Syria is settled peacefully or through 
negotiations, the groups best placed to vie for power are senior 
members of the Syrian National Council, the Free Syrian Army (FSA), the 
Syrian Muslim Brotherhood, National Coordination Board, Local 
Coordination Committees, Kurdish groups, the Sunni business class, or 
various current regime officials.

    9. Senator McCaskill. General Dempsey, are these players friendly 
to the United States?
    General Dempsey. Most elements of Syrian political and military 
opposition are actively seeking foreign support and would welcome 
financial or material assistance from the United States. It is not yet 
clear what a post-Assad Government, could look like or what its 
international relations priorities would be.
    Much of the leadership of the Syrian National Council would welcome 
friendly relations with the United States. There is little information 
on the FSA's views of the United States. Additionally, it is too soon 
to predict what position the Syrian Muslim Brotherhood would take on 
improving relations with the United States.
                                 ______
                                 
             Questions Submitted by Senator Roger F.Wicker

                         ROLE OF NATO IN SYRIA

    10. Senator Wicker. Secretary Panetta and General Dempsey, the 
March edition of Foreign Affairs contains an essay by North Atlantic 
Treaty Organization (NATO) Ambassador Ivo Daalder and NATO Supreme 
Allied Commander Stavridis, titled: ``NATO's Victory in Libya''. This 
piece highlights the successes and lessons learned from Operation 
Odyssey Dawn. The U.S. and NATO intervention in Libya serves very much 
as an exemplar for similar intervention in Syria. Their essay 
explicitly notes that: ``When a group of countries wants to launch a 
joint intervention as a coalition--which confers political legitimacy--
only NATO can provide the common command structure and capabilities 
necessary to plan and execute complex operations. Multilateral 
coalitions built on an as-needed basis, by contrast, have no common 
doctrine for conducting military operations, no common capabilities or 
command structure for quickly integrating national forces into a 
cohesive campaign, and no standing mechanisms for debating and then 
deciding on an agreed course of action.'' Have you had any discussions 
or consultations with our NATO allies on contingency planning regarding 
Syria?
    Secretary Panetta. First, I would like to emphasize that the United 
States is committed to bringing an end to the atrocities perpetuated by 
the Assad regime as soon as possible. Our focus has been and continues 
to be on diplomatic and political approaches to this situation, rather 
than military intervention. But we have not ruled out any course of 
action. We remain engaged with our allies and partners as we determine 
how best to resolve the crisis in Syria.
    We have not started planning within NATO for military contingency 
operations. For NATO to take action, including formal military 
planning, all 28 members must agree to do so. As we saw in Libya, many 
allies would be hesitant to commit NATO as an organization to intervene 
militarily in Syria without clear support from countries in the region 
and a proper international legal basis, such as a Chapter VII U.N. 
Security Council Resolution (UNSCR).
    In the case of Syria, a consensus for military intervention does 
not exist at this time in the Arab League, the U.N. Security Council, 
or NATO. There are also concerns about the effect of military 
intervention on Syria's neighbors, potential refugee flows across the 
borders with Turkey, Jordan, and Lebanon, and the possibility that 
violence may spread into these countries or along Israel's borders.
    Although the objective of protecting civilians and supporting 
universal human rights are similar in these two cases, we do not 
believe the same means employed in Libya are available or advisable at 
the current time in Syria. Several factors--including demographic, 
ethnic, geographic, religious, and military capability--distinguish the 
challenges posed by the situation in Syria, as compared to the 
situation in Libya prior to Operation Odyssey Dawn. On February 29, 
2012, NATO Security General Rasmussen stated: ``We haven't had any 
discussions in NATO about a NATO role in Syria and I don't envision 
such a role for the alliance,'' and that ``Syria is ethnically, 
politically, religiously much more complicated than Libya. This is the 
reason why the right way forward is different.'' Likewise, it is 
important to note that the Syrian regime has approximately five times 
more sophisticated air defense systems than existed in Libya, covering 
one-fifth of the terrain, in addition to much larger conventional and 
chemical weapons stockpiles.
    The U.S. Government continues to pursue a range of non-military 
options, such as increased sanctions, to increase pressure on the 
Syrian regime, in addition to our work at the U.N. Security Council and 
with our international partners, including the Arab League and U.N.-
Arab League Envoy to Syria, Kofi Annan. As I noted, we are committed to 
bringing an end to the atrocities perpetuated by the Assad regime as 
soon as possible.
    General Dempsey. I have discussed the current situation in Syria 
with some NATO allies. However, we have not discussed contingency 
planning with any other members of NATO. To date, NATO has not 
discussed any possible future role that the alliance could play with 
regard to the situation in Syria.

    11. Senator Wicker. Secretary Panetta and General Dempsey, the Gulf 
Cooperation Council (GCC) has increased their rhetoric about arming the 
Syrian opposition forces. What options exist for NATO and the GCC to 
expedite arms assistance to the Syrian opposition?
    Secretary Panetta. In order for NATO to take action, all 28 members 
must agree to do so. Many allies would be hesitant to commit NATO as an 
organization to intervene militarily in Syria, without clear support 
from countries in the region and a proper international legal basis, 
such as a Chapter VII UNSCR. In addition, NATO, as an organization, 
does not provide arms to any nation or opposition entity.
    GCC member states have offered critical support and participation 
in international efforts to stop the violence in Syria, and to develop 
a political solution to the crisis. Although we continue to assess 
options and the feasibility of providing security assistance to the 
Syrian opposition, we do not believe it is appropriate to provide 
lethal assistance, at this time. We encourage the GCC and other 
interested parties to use diplomatic influence and resources to 
pressure the Assad regime and encourage the Syrian opposition to halt 
violence, and to begin the orderly transition to democracy.
    General Dempsey. To date, NATO has not discussed any possible 
future role that the alliance could play with regard to situation in 
Syria. The provision of lethal aid to the opposition is problematic for 
a variety of reasons to include: opposition unity and vetting, 
achieving the requisite legal basis to preclude lethal aid, and 
avoiding transfers to various extremist organizations operating within 
Syria. Some members of the GCC have publically advocated providing arms 
to the Syrian opposition but this is presently a problematic option for 
the United States. We are not aware of any NATO options to expedite 
arms assistance to the Syrian opposition.

    12. Senator Wicker. Secretary Panetta and General Dempsey, similar 
to our efforts in Libya, do you currently believe there is sufficient 
consensus within NATO to support alliance-led airstrikes to establish 
humanitarian safe-havens for civilians in Syria?
    Secretary Panetta. I do not believe there is sufficient consensus 
at this time.
    For NATO to take action, all 28 members must agree to do so. As we 
saw in Libya, many allies would be hesitant to commit NATO as an 
organization to intervene militarily in Syria without clear support 
from countries in the region and a proper international legal basis, 
such as a Chapter VII UNSCR.
    General Dempsey. Currently, I do not believe there is consensus 
within NATO for such action. To date, NATO has not discussed any 
possible future role that the alliance could play with regard to the 
situation in Syria.

                            SYRIAN REFUGEES

    13. Senator Wicker. Secretary Panetta and General Dempsey, on 
Monday, March 5, 2012, the Office of the United Nations High 
Commissioner for Refugees (UNHCR) reported that over 2,000 Syrian 
refugees--including Christians--have fled to border towns in Southern 
Syria in the hopes of crossing to Lebanon. For those who make it to 
Lebanon, many Syrian refugees fear agents from their own country's 
security services. Anecdotal stories have circulated of kidnappings and 
collaboration between Lebanese and Syrian security forces. Turkey says 
it hosts more than 11,000 Syrians in camps along the border with Syria, 
including more than 1,000 who crossed in the last month. Jordan has 
more than 80,000 Syrian refugees, according to the government. About 
100 have entered Jordan in the last 2 days. I continue to be concerned 
about the crisis regarding Syrian refugees seeking refuge in Lebanon, 
Jordan, and Turkey. For instance, our NATO ally Turkey is hosting over 
11,000 Syrian refugees while Jordan is reportedly hosting over 80,000 
Syrian refugees. What is the Department of Defense (DOD) prepared to do 
in terms of food or logistical assistance to help address this regional 
refugee crisis in the Levant?
    Secretary Panetta. The State Department and USAID are the lead U.S. 
Government agencies for foreign humanitarian assistance. They are 
providing substantial support to the humanitarian relief effort in 
Syria and the surrounding countries through a number of humanitarian 
organizations.
    It is DOD's job to ensure the President has a range of viable 
options at his disposal, and that we have fully considered all 
contingencies. This does not imply, however, an intent or 
recommendation to execute any particular contingency plan.
    General Dempsey. DOD is actively engaged with both our allies and 
the U.S. Government interagency to evaluate and address the refugee 
situation. Recent bilateral discussions with both Turkey and Jordan 
included the refugee concern and all parties continue to share 
information related to this topic. U.S. interagency, including DOD, 
Department of State, USAID and other elements continue to plan for 
assistance as it may be required to support the UNHCR and related 
efforts on the ground within the region. UNHCR leader Valerie Amos 
assessed the situation on the ground concurrently with U.N. envoy Kofi 
Annan's visit to Syria and the United States continues to fully support 
UNHCR efforts on refugees throughout the region.

                      SYRIAN DEPENDENCY ON RUSSIA

    14. Senator Wicker. Secretary Panetta and General Dempsey, it is no 
surprise given Vladimir Putin's so-called presidential victory over the 
weekend that Russia continues to be an ardent supporter of the Syrian 
regime's survival. Russia and China have blocked measures in October 
and February supporting an Arab League-drafted transition plan. 
According to the Moscow Times, Russia's current economic investment in 
Syria totaled $19.4 billion in 2009. In recent years Syria purchased 
modern anti-tank and anti-air missile systems from Russia. In 2008, 
Syria agreed to purchase advanced fighters, air-defense systems, 
tactical missile systems, and submarines from Russia. These sales are 
not limited to equipment and also extend to personnel training and 
other activities. As such, what is the level of Syria's economic and 
military dependency on Russia for towards the Assad regime's survival?
    Secretary Panetta. Russia is the largest supplier of military 
equipment to Syria, and is also an important economic partner. 
Unfortunately, Russia continues to supply weapons to Syria. The United 
States has repeatedly raised our concerns regarding Russia's decision 
to continue these weapons deliveries. However, Assad's survival does 
not solely hinge on further Russian military or financial aid. Russian 
political support for Syria, particularly in the U.N. Security Council, 
has shielded Syria from international efforts to stop the violence and 
to hold the Assad regime accountable. However, we have recently been 
encouraged by Russian support for U.N.-Arab League envoy to Syria, Kofi 
Annan.
    General Dempsey. The survival of the Syrian regime is not 
ultimately contingent on Russian financial and military support. 
However, this support does place Damascus in a more confident position 
when attempting to weather unrest and the regime continues to value 
Russia as one of its most important foreign allies. Russian top cover 
at the U.N. has further solidified the regime's intransigence while 
continued arms supplies, including advanced defensive systems, likely 
bolster Damascus' confidence it can deter foreign military 
intervention.
    Beyond the arms trade, Russian companies have made a number of 
investments in Syria, including some from Russia's powerful energy 
sector, such as a natural gas production facility and pipeline. Russia 
exported $1.1 billion worth of goods to Syria in 2010, about 6.3 
percent of Syria's imports.

    15. Senator Wicker. Secretary Panetta and General Dempsey, can you 
elaborate on the ongoing military-to-military cooperation between Syria 
and Russia?
    Secretary Panetta. Syria continues to be one of Russia's closest 
military partners in the Middle East, and Russia remains Syria's 
largest supplier of military equipment. Despite the international 
condemnation of Assad's harsh crackdown on Syria's own population, 
Russian arms deliveries continue. Russia has military advisors in Syria 
and a naval logistics base in the Syrian Port of Tartus. The United 
States has repeatedly raised our concerns regarding the continued 
deliveries of weapons to Syria and we will continue to do so as long as 
the violence continues and Assad remains in power.
    General Dempsey. [Deleted.]

    16. Senator Wicker. What level of intelligence cooperation do you 
believe exists between the Syrian and Russian security services?
    Secretary Panetta. [Deleted.]
    General Dempsey. [Deleted.]

                       IRANIAN INFLUENCE IN SYRIA

    17. Senator Wicker. Secretary Panetta, in late January 2012, 
General Qassem Soleimani, commander of the Iranian Quds Force (an elite 
unit of Iran's Revolutionary Guards), visited the Syrian capital. This 
visit represents the most prominent signs of Iran's assistance to 
Syria, including military equipment. Additionally, recently General 
Mattis, while describing a deteriorating situation in Syria, stated 
that it was fueled in part by Iran. In what capacity has Iran and/or al 
Qaeda contributed to these horrific events taking place in Syria?
    Secretary Panetta. [Deleted.]

    18. Senator Wicker. Secretary Panetta, would a collapse of 
President Assad's rule likely end Iran's cozy ties with Syria and 
potentially redraw the Mideast's pathways of influence?
    Secretary Panetta. [Deleted.]

    19. Senator Wicker. Secretary Panetta, would the Assad regime's 
demise choke off aid to Tehran's main anti-Israel faction, Hezbollah in 
Lebanon?
    Secretary Panetta. [Deleted.]

                             SYRIAN FORCES

    20. Senator Wicker. General Dempsey, Syrian forces reportedly 
executed 47 Syrian soldiers who tried to defect in the city of Idlib 
just this past week. The regime of President Assad is currently beset 
by an armed insurgency mounted by the FSA. The FSA, which consists of 
some 20,000 army defectors armed as light infantry, has mounted 
numerous lethal ambushes and hit-and-run raids on loyalist troops. What 
is your assessment of the Syrian military and what is the level of 
loyalty towards Assad?
    General Dempsey. The Syrian military maintains a force of over 
300,000 Active Duty personnel and a robust Reserve Duty Force, which 
can be drawn upon at need. The majority of Syria's armed forces remain 
loyal to Assad. The Syrian military has been beset by regular 
defections of soldiers since unrest began, but overall its capabilities 
remain strong. To date, neither senior military officers nor members of 
Assad's inner circle have defected. The highest ranking defectors to 
date have held the rank of brigadier general.

    21. Senator Wicker. General Dempsey, what is your opinion on the 
capabilities of the FSA?
    General Dempsey. The capabilities of the FSA have steadily grown in 
recent months; however, the organization remains beset by logistical 
shortfalls and lack of unity among its leadership.
    The ability, or inability, of the FSA to exercise operational 
control over the armed opposition bears continued monitoring. In recent 
months, the FSA has issued several calls for the armed opposition 
operating within Syria to unite under the FSA's banner, suggesting the 
group has had difficulties exercising control over disparate armed 
groups throughout Syria.
    FSA members are actively seeking military aid from foreign 
sponsors, including ammunition, small arms, and advanced weapons 
systems.

    22. Senator Wicker. General Dempsey, what can the United States and 
NATO do to help these opposition forces?
    General Dempsey. Alliance political leaders must answer the 
question regarding what NATO can do to help the opposition forces. 
However, to date, NATO has not discussed any possible future role that 
the alliance could play with regard to helping the opposition forces in 
Syria.

    [Whereupon, at 11:32 a.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
